<html>
<title> - LEGISLATIVE ISSUES FOR TRANSPORTATION REAUTHORIZATION</title>
<body><pre>[Senate Hearing 112-956]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-956

                         LEGISLATIVE ISSUES FOR
                     TRANSPORTATION REAUTHORIZATION

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 21, 2011

                               __________

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov

                               __________

                        U.S. GOVERNMENT PUBLISHING OFFICE 

23-822 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


















               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director






















                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 21, 2011
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, James M., U.S. Senator from the State of Oklahoma........     3
Baucus, Hon. Max, U.S. Senator from the State of Montana.........     6
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     7
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....     8
Lautenberg, Hon. Frank, U.S. Senator from the State of New Jersey     9
Boozman, Hon. John, U.S. Senator from the State of Arkansas......    11

                               WITNESSES

Antonio, Hon. Mayor R., Villaraigosa, Mayor, City of Los Angeles.    12
    Prepared statement...........................................    15
O'sullivan, Terence M., General President, Laborers' 
  International Union of North America...........................    21
    Prepared statement...........................................    23
James, Donald M., Chairman and Chief Executive Officer, Vulcan 
  Materials......................................................    27
    Prepared statement...........................................    29
Martinovich, Susan, P.E., Director, Nevada Department of 
  Transportation, on Behalf of the American Association of State 
  Highway and Transportation Officials...........................    33
    Prepared statement...........................................    35
Ridley, Hon. Gary, Secretary, Oklahoma Department of 
  Transportation.................................................    44
    Prepared statement...........................................    46
Lovaas, Deron, Transportation Policy Director, Natural Resources 
  Defense Council................................................    52
    Prepared statement...........................................    54
Cohen, Greg, President, American Highway Users Alliance..........    72
    Prepared statement...........................................    75

 
         LEGISLATIVE ISSUES FOR TRANSPORTATION REAUTHORIZATION

                              ----------                              


                        THURSDAY, JULY 21, 2011

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Inhofe, Baucus, Carper, 
Lautenberg, Sanders, Whitehouse, Merkley, Sessions, Boozman.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The committee will come to order.
    This is a very big day for us. I believe it is a milestone. 
And every one of the panelists here played a role. Before I 
begin my statement, I want to thank a host of organizations who 
have been transportation advocacy organizations. And this is 
not complete, but I just feel this moment belongs to you as 
well as to all of us. I am going to name them.
    The National Conference of Mayors; The American Public 
Transportation Association; The American Council of Engineering 
Companies; The American Road and Transportation Builders; 
National Stone, Sand and Gravel Association; The AFL-CIO; a 
host of environmental organizations; the American Bus 
Association; AASHTO; AAA, International Union of Operating 
Engineers; American Traffic Safety Services Association; 
American Society of Civil Engineers; The Associated General 
Contractors; the American Trucking Association; The Association 
of Metropolitan Planning Organizations; The American Concrete 
Pavement Association; Associated Equipment Distributors; 
Portland Cement Association; National Ready-Mix Concrete 
Association; National Auto Dealers; National Asphalt Pavement 
Association; Laborers' International Union of North America; 
Owner-Operator Independent Drivers Association; American Iron 
and Steel Institute; U.S. Chamber of Commerce; National 
Association of Development Associations; National Association 
of Truck Stop Operators; American Highway Users Alliance; and 
many more.
    I had to do that, because this day has been hard to reach. 
And it is because of your advocacy, working with all of us, 
that we have gotten to this point.
    So now I will begin my statement, my 5-minute statement. I 
want to thank so much my friend and colleague, Senator Jim 
Inhofe, for ensuring that our differences on many other issues 
never got in the way of our working toward a bipartisan 
Transportation Bill. We admit that we see life differently in 
many areas. But where we can come together, we do. And this is 
one area we believe it is absolutely necessary for our States 
and the United States to be strong and competitive.
    And we share a deep commitment to the safety of our bridges 
and our infrastructure. And one of the most, I think, 
compassionate moments I have seen on this committee is when 
Senator Inhofe talks about what happened when there was a piece 
of infrastructure that started to fall apart in Oklahoma and 
the consequences of that.
    All of the Senators on this committee have been 
instrumental in getting this bill ready for action. I must say, 
Senator Baucus and Senator Vitter, who are the Chairman and 
Ranking Member of the Transportation and Infrastructure 
Subcommittee, were extraordinarily helpful and we had many, 
many meetings for more than a year now. I want to thank the 
committee staff, who have been working so diligently on this 
bill.
    And thanking everybody doesn't mean this bill is done. But 
I want to make the point that it is an unusual situation where 
we have to work so hard to get to this place. So I want to 
thank Bettina Poirier, Ruth Van Mark, David Napoliello and 
James O'Keeffe. These are the bipartisan staff, I think I have 
spoken to them at 9, 10, 11 o'clock at night for nights on end.
    I want to thank the staff of all of our colleagues on both 
sides of the aisle for working so closely on this bill. And I 
want to welcome everyone to this very important moment, this 
critical moment in our Nation's infrastructure. Because the 
current Surface Transportation bill expires on September 30th, 
and if we don't act, this is the fact, we will see a cut of 
one-third, actually 36 percent. And we will see a loss of 
620,000 jobs between highway and transit, 500,000 of those on 
the highway side.
    So it is clear that we have to act. Because if we don't 
step up to the plate, we will see all these hundreds of 
thousands of jobs lost, and we will see our infrastructure 
continue to crumble.
    This hearing is a milestone. This bill, Moving Ahead for 
Progress in the 21st Century, MAP-21, will maintain current 
funding levels, protect existing jobs, help spur economic 
recovery. Now, we made a lot of reforms in this bill. It is 
remarkable how many reforms we have made. We have taken an 
array of programs, we have consolidated them. We have made this 
bill much more streamlined than any other bill that we have 
seen before. But we keep funding at current levels, and that is 
crucial.
    We also have a new section called America Fast Forward. 
That name was after a name that a bipartisan group of leaders 
in Los Angeles came up with to describe one particular part of 
this bill, the part that funds TIFIA at a billion dollars. And 
the mayor will speak to that, Mayor Villaraigosa will speak to 
that. I thank him and his bipartisan team for that.
    According to the Federal Highway Administration, every 
Federal dollar made available through TIFIA historically has 
mobilized up to $30 in transportation investments. I am pleased 
to say that although Chairman Mica's bill is quite different 
from this bill, and it totally reflects a huge cut, he does 
step up to the plate on TIFIA. And I am very grateful to him 
for that.
    I joined him in Los Angeles where he heard about TIFIA. He 
stepped up with his, and he has a billion dollars for TIFIA, 
and I am very pleased about that.
    Let me say again, we have many differences on this 
committee when it comes to the environment. That is no secret, 
and we are very open about it. We sometimes have a sense of 
humor about it, although sometimes neither side is laughing 
much. But on this, we really do believe this is a basic 
function of the national government, to address our 
infrastructure needs. Because if you can't move people and you 
can't move goods, you are just not going to grow. We are not 
going to have the jobs, we are not going to be the great power 
that we are and we want to continue to be.
    I would say in closing that the coalition I mentioned at 
the beginning, I think, was really represented in a magnificent 
way earlier in the year when we heard from Tom Donahue, 
President of the U.S. Chamber of Commerce, and Richard Trumka, 
President of the AFL-CIO. They practically held hands during 
their testimony. They were so close together on the way we need 
to take immediate action to reauthorize this Nation's 
transportation system.
    So I look forward to this hearing. I look forward to our 
markup. We are working together on a date, that it may be 
before we get out of town here on this summer recess. Pray God 
all the other things fall into place that we know we have 
hanging over us.
    But again, my deepest thanks, and I will call on Senator 
Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    I want to put an editorial from the Oklahoman in the 
record. I think it is very, very good.
    [The referenced information was not received at time of 
print.]
    Senator Inhofe. Let me start by commending Chairman Boxer. 
As she says, we have had a lot of differences in the past, but 
this one area, we really don't have differences. We recognize 
that this is what we are supposed to be doing up here. For her 
leadership and dedication and willingness to work together has 
made this possible. I say the same thing for Senator Baucus and 
the rest of the committee. I know that Senator Sessions has had 
real concerns about what is happening in his State of Alabama.
    And we have put together, I think, a really good highway 
bill, under the circumstances, one that we could not have 
anticipated we could have done even two or 3 months ago. It is 
very appropriate that we have my favorite Secretary of 
Transportation, Gary Ridley back with us. I have often said he 
is the best in the Nation. And one of the reasons for that is 
that he has been there as long as I have.
    Didn't we figure out that we came about, he came as a 
laborer to the Department of Transportation the same time I 
came as a laborer to the State legislature? I think it was the 
same year. We won't tell them how long ago that was. But we go 
back a long way. And I don't think, I say this, you can't find 
too many of the members that have the close relationship that 
we have. There is not a week that goes by that we don't talk 
about this problem that we are facing.
    We acknowledge that the proposal that we have has a $12 
billion shortfall. I know that the Finance Committee is working 
on that. It is something that we are not going to be able, yes, 
we are going to come out with a bill, but it is not going to 
reach where we need to have it to get it passed until such time 
as we fill that hole. We can do that. But I can tell you right 
now, it will be virtually impossible to pass unless we are able 
to do that.
    Now, I think we are facing that. We know that it is going 
to happen. We are fortunate to have the Chairman of the Finance 
Committee on our committee, Senator Baucus. And we work very, 
very closely with him. So I support the efforts that have been 
working behind the scenes with him and with the Republicans, I 
have been talking with the Republicans on the Finance 
Committee, talking about what really we should be doing as we 
address the spending problems.
    I have to say that there are a lot of things in this bill 
that were compromises between Barbara and myself, between the 
Chairman and myself. And there is a lot more in the way of 
project delivery that I would have preferred, a lot more of the 
livability stuff that she would have preferred. But most of 
all, we want a bill. And this includes many of the essential 
policy reforms that my colleagues and stakeholders have 
recommended, consolidates the number of programs from SAFETEA 
from 87 down to 30, a major, major change.
    And I also want to say that putting this thing off is not 
an option. We have been putting it off and putting it off. The 
Chairman mentioned an incident, and we were talking about it 
when we had dinner last night with Secretary Ridley, about the 
lady in my State of Oklahoma who drove under a bridge, a chunk 
of concrete this size fell off, hit her, killed her. She's a 
mother of two small children. We can tell stories about this.
    So this is not just, is this something that should enjoy a 
high priority. This is life-threatening, it is something we are 
going to have to do.
    So I don't think that putting it off is an option. I don't 
think that settling for the lower figure that would be a 34 
percent cut, and I am going to be asking Secretary Ridley to 
talk about the specifics in our State of Oklahoma, as to what 
this would mean, what this would cost. It would be very, very 
expensive.
    And I want to get one thing across to my colleagues. I have 
been ranked more often than not the most conservative member of 
the U.S. Senate. And yet, I have often said there are two areas 
where I am a big spender. And I admit that. One is national 
defense, and the other is infrastructure. Because this is where 
it has to happen. We don't do it here, it is not going to 
happen any other way.
    So I have personally been on this since I have been in this 
Senate, and then 8 years prior to that on the same committee in 
the House. So I think that we know what we have to do, and I 
think we are prepared now to get something done. So we will be 
looking forward to it. I agree with you, Madam Chairman, this 
is a very, very significant day.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    I'd like to start by commending Chairman Boxer. With her 
leadership and dedication, and the great work of Senators 
Baucus and Vitter, we have put together a really good highway 
bill. Anytime you are working on a bill this important, it is 
hard to reach a bipartisan compromise, and this is especially 
true in our current political environment. What we have 
achieved here is important for the Nation.
    It is so appropriate to have Secretary Ridley here with us 
today. I've often said that he is the best DOT Secretary in the 
Nation. There is no person whose judgment I value more on these 
issues. I speak with him many times each month and I could not 
have negotiated this bill without him.
    We must acknowledge that our proposal to fund the highway 
program at current levels would result in a $12 billion 
shortfall in the Highway Trust Fund. Before we proceed to mark 
up, I must insist that the Finance Committee has identified a 
bipartisan way of filling this hole. It is unwise to push an 
unfunded proposal to spend over $100 billion at the same time 
the Nation is singularly focused on cutting trillions of 
dollars in spending. If we proceed before we have identified 
funding, we will lose Republican support and kill the bill for 
this Congress, doing irreparable harm in the process.
    We are very fortunate to have the Chairman of the Finance 
Committee, Senator Baucus, working so closely with us toward a 
bipartisan solution. I support his efforts and have been 
working behind the scenes to help him with Republicans.
    As is the case with all compromises, nobody gets everything 
they want. Most notably, this bill does not go as far as I 
would like on project delivery and it doesn't have the so-
called ``livability'' mandates the other side would have liked. 
What we do have, is a bill that can pass the Senate.
    This bill includes many of the essential policy reforms 
that my colleagues and stakeholders have recommended. It 
consolidates the number of programs in SAFETEA from 87 to under 
30. It gives states more flexibility, while focusing Federal 
dollars on key outcomes. These changes will ensure that 
Americans get the most for their gas tax dollars. We have also 
made good progress expediting project delivery, including 
expanding categorical exclusions and imposing meaningful 
deadlines on Federal resource agencies. Finally, the bill will 
include no earmarks or programs that only benefit a limited 
number of states.
    I want to make it very clear that putting this off is not 
an option. We need to do a highway bill. A short term extension 
does not give states needed certainty and will either mean a 
cut of at least 34 percent Federal highway funding or a bailout 
of the Trust Fund in fiscal year 2013. Of equal importance, an 
extension will not include any of the important policy reforms 
in our bill.
    I'd like to take a moment to point out to my colleagues 
that I have been calling for massive cuts to government 
spending for years now. I introduced the first bill to lower 
spending to 2008 levels. This call has been echoed by most 
proposals to rein in our out of control spending since then. 
But it is important to note that taking the highway program 
down to $27 billion would mean going below 2000 funding 
levels--a point far beyond what is being talked about for 
other, less critical programs.
    This 34 percent cut would mean $200 million each year less 
for my State of Oklahoma than they currently receive. A recent 
editorial in the Oklahoman entitled ``Cuts in highway funds 
would really hurt Oklahoma'' discussed possible delays in 
critical projects if we go with the House number. This is going 
to be repeated in every State in the Nation. The impact of that 
on jobs and the economy will be staggering.

    Senator Boxer. Thank you so much.
    I am going to call on Senator Baucus. I just want to say 
something I said to him privately and said to Senator Inhofe 
privately, that in the Gang of Six proposal, which as you know 
everybody is looking at, one of the things they do there is 
fully fund the Highway Trust Fund for 10 years out, based on 
current levels of spending. And I think the reason it is just 
important to mention it is because I think it does show that 
among Democrats and Republicans, this is a strong priority. 
They don't mention any other specifics.
    Senator Inhofe. And confession is good for the soul. I have 
to admit, I didn't know that until Barbara told me on the floor 
yesterday.
    Senator Boxer. I just think it is something that says other 
people feel the way we do about it.
    Senator Baucus.

             OPENING STATEMENT OF HON. MAX BAUCUS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. Thank you, Madam Chairman.
    And I thank you for scheduling this hearing to finalize our 
bill.
    I want to read a quote, and I want everyone to see if you 
can guess who said it and when it was said. ``American today 
lacks a coordinated transportation system that permits 
travelers and goods to move conveniently and efficiently from 
one means of transportation to another, using the best 
characteristics of each. The result is waste of human and 
economic resources and each of the taxpayers' dollar. Modern 
transportation can be the rapid conduit of economic growth or a 
bottleneck. It can bring jobs and loved ones and recreation 
closer to every family, or it can bring instead a sudden and 
purposeless death. It can improve every man's standard of 
living, or multiply the cost of all he buys. It can be a 
convenience or it can frustrate and impede and delay. The 
choice is ours to make.'
    That was President Lyndon Johnson, March 2d, 1966, calling 
for establishing a United States Department of Transportation. 
What he said more than 45 years ago is as relevant today as it 
was then. The choice is ours to make. We need to plan for 
America's future.
    That is why with your able leadership, Madam Chairman, this 
Senate will proceed with a bipartisan 2-year bill. Let's be 
clear: 2 years is not ideal, not in a transportation bill. I 
know Chairman Boxer held out for a 6-year bill as long as 
possible. But the issue is funding.
    The Congressional Budget Office says the Highway Trust Fund 
needs $12 billion just to maintain funding and still have a 
prudent balance at the end of 2 years. I want to say publicly 
that I am working very hard on the Finance Committee to find 
that money. We are having constructive conversations. Nothing 
is certain around here, but I feel fairly confident with some 
of the ideas we are working on that we will, on a bipartisan 
basis, find that $12 billion.
    But there is also a sequence to things. Senators want to 
see Congress resolve the debt limit before they will commit to 
anything with respect to how we fund and find that $12 billion. 
I am, however, optimistic we will find the money and avoid the 
severe cuts the House proposes. And I am optimistic about the 
bill we are discussing today.
    This is one of our most important national programs. And I 
underline the word national. We need a little more of that 
around here. As with defense, space, agriculture, security, we 
are all in this together. Chairman Boxer, Ranking Member 
Inhofe, Senator Vitter, and I have stayed focused on the main 
national goals. I want to note the contributions of Senator 
Isakson and our former colleague, Senator Voinovich, as 
previous Ranking Member on the committee.
    Some people won't like it. They will say it doesn't do 
enough of this, or does too much of that. But that is of course 
the nature of compromise. We have made compromises in the 
national interest. In America, people need a 21st century 
National network. Our bill focuses on national pursuits, such 
as asset management, safety, mobility, freight and planning. We 
seek to prioritize needs and to foster smart investment for the 
future.
    States need funding certainty to uphold the national 
network. And America needs jobs. Nationally, unemployment is at 
9 percent, unemployment in the construction sector 16 percent.
    So the urban and the rural, the donor and the donee States 
must now all pull together for our shared national benefit. We 
are in this together. It reminds me of what Benjamin Franklin 
said, either we hang together or most assuredly we are going to 
hang separately. That is true of the Highway Bill, too. We have 
to hang together to get a good national bill.
    Meanwhile, over the next 2 years, we should contemplate 
what we want this program to be for the 21st century. And we 
need to think about how we are going to pay for it.
    We should use our time wisely. And as President Johnson 
said, the choice is ours to make. Thank you, Madam Chairman.
    Senator Boxer. Thank you so much.
    I thought it was Eisenhower, so you surprised me on that.
    Senator Baucus. Eisenhower was the Highway Bill, he was the 
interState system.
    Senator Boxer. We all would have failed the exam. This is 
embarrassing.
    But actually, it is fascinating to think about how long ago 
that was said, and think how much we have grown since then, and 
what worse problems we now face. Thank you so much.
    Senator Sessions.

           OPENING STATEMENT OF HON. JEFF SESSIONS, 
             U.S. SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. Thank you, Madam Chair.
    I will offer my statement for the record, and just 
congratulate you and Senator Inhofe for working, putting 
together MAP-21. It is a framework that really answers some of 
the questions our State highway director raised when he 
testified here. So you made some progress in a lot of different 
areas.
    As the ranking Republican on the Budget Committee, I do 
know how significant our financial situation is. And if we can 
maintain the funding level that you have recommended, I think 
it would be something I can support. And I say that very 
seriously, because a lot of programs will not be able to 
maintain the level we would like them to be maintained at.
    I remain disappointed that the Stimulus Bill only produced 
about 4 percent of that money to roads and bridges. So we have 
missed an opportunity there to jump start some of our 
infrastructure needs. And we will wrestle with this. Secretary 
LaHood testified at the Budget Committee and said we needed 
more revenue. But it was not a gas tax. So I teased him a 
little and talked about the not-gas tax. So Senator Baucus, I 
don't know, you will have a not-gas tax revenue enhancement 
somehow, I guess, or offsetting expenditure somewhere.
    Senator Baucus. The leading contender is the non-gas tax.
    [Laughter.]
    Senator Sessions. The not-gas tax tax.
    Senator Baucus. No, the not-gas tax measure.
    [Laughter.]
    Senator Sessions. OK.
    May I take this opportunity to introduce one of the 
witnesses from Alabama?
    Senator Boxer. Yes, of course.
    Senator Sessions. I do have two other hearings at this very 
moment, so I will be in and out.
    It is really my pleasure to introduce Don James. He will be 
testifying today. He is Chairman and CEO of Vulcan Materials 
Company, based in Birmingham. Vulcan is the Nation's largest 
producer of materials that go into highways and roadways. He 
joined Vulcan in 1992, after a long and successful career with 
Bradley, Ahrent, Rose and White, Alabama's largest law firm. 
And I am sure Don thought it was the best and it is still a 
great law firm.
    He has a bachelor's degree, an MBA from the University of 
Alabama and his law degree from the University of Virginia. He 
served in the Army as a first lieutenant. He is active in a 
number of business, civic and industry organizations. He is one 
of Alabama's most respected and important leaders.
    He is past chairman of the National Stone, Sand and Gravel 
Association, a director of the Boy Scouts, of the U.S. Chamber 
of Commerce, University of Alabama-Birmingham Medical Health 
System, Economic Development Partnership of Alabama and 
University of Alabama Health Services Foundation, a trustee of 
Birmingham Southern College, a fabulous liberal arts college, I 
guess one of the highest ranked academically in the State, and 
Children's Hospital, which is a fabulous hospital in 
Birmingham.
    So Mr. James is a fine citizen and knowledgeable person who 
is deeply involved in these issues. From my experience in 
talking with him, you can be sure that the comments he offers 
will be wise and beneficial. Thank you, Madam Chairman.
    Senator Boxer. Senator Sessions, I know you have to go in 
and out. I just want to thank you for your comments. Your 
support for this bipartisan bill that you expressed today goes 
a long way with me. I am just very grateful to you.
    Senator Sanders.

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Sanders. Thank you, Madam Chair.
    I find myself in agreement with much of what has already 
been said. What I can say is, I was a mayor for 8 years. One of 
the things you learn about infrastructure as a mayor is if you 
don't invest in it, if you don't maintain it, if you don't 
rebuild it, you know what? It doesn't get any better.
    So one of the stupid elements that we do about delaying 
infrastructure ends up costing us more, because we allow it to 
deteriorate. That does not make any sense at all.
    Madam Chair, I had hoped, as you know, that we would be 
discussing a 6-year bill. I know that was your desire as well, 
rather than a 2-year bill. That said, I hope that this 
committee and the Senate can come together to pass meaningful 
legislation that will address our significant transportation 
infrastructure needs. And it has already been stated, not only 
do we deal with infrastructure, and the need to rebuild our 
infrastructure is apparent to everybody in this Country, but in 
the process, we can create over a period of years millions of 
good-paying jobs. So this is not only an infrastructure issue, 
it is a job-creating moment, and it is one that we must take 
advantage of.
    Even with this very meaningful investment being made as a 
result of the Recovery Act, we put some money into 
infrastructure, not enough, our transportation system clearly 
is in worse and worse shape every year. We have heard in 
previous hearings that the American Society of Civil Engineers 
has graded America's roads, public transit and aviation with a 
D, a D. They say that we must spend $2.2 trillion over the next 
5 years, simply to get to a passable condition, a passable 
condition, not $109 billion over 2 years, but more than eight 
times that amount each year for the next 5 years.
    So what we are doing here is trying to move forward. But I 
think we can all acknowledge that it is simply not enough.
    Madam Chair, let me just simply conclude that not only is 
this important to infrastructure, not only is it important for 
job creation, it is also important in terms of our position in 
the global economy. Today the United States invests just 2.4 
percent of GDP on infrastructure. Europe invests twice that 
amount. China invests almost four times our rate, roughly 9 
percent.
    I will conclude with a short story. Good friend of mine 
returned from China, leaving a state-of-the-art airport in 
China, having ridden on state-of-the-art rail, getting cell 
phone service all over that so-called Third World country. Came 
back to an overcrowded airport in New York City, where he had 
to wait for hours to catch his plane. Couldn't find a seat. And 
when he returned, he was wondering which is the Third World 
country.
    The rest of the world is moving forward aggressively in 
public Transportation and sustainable energy and so forth. We 
are not. So this is an enormously important bill for a number 
of reasons. And I look forward to working with you to make it 
happen.
    Senator Boxer. Senator Sanders, I so appreciate this. Great 
disappointment that we couldn't do a 6-year bill. It has to do 
with funding and locking funding in for 6 years and the kind of 
job that our good Senator Baucus has to do in his committee, 
getting support.
    But I do know how you feel, and I want to note that you 
have been nothing but helpful and your staff as well.
    And Senator Lautenberg, a long-time champion of 
transportation, I am so glad you are here. Please have the 
floor.

          OPENING STATEMENT OF HON. FRANK LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you very much, Madam Chairman.
    I won't be long. But I start by looking at what our mission 
is. And if our mission is to move our economy forward and 
create jobs, then we can do it very rapidly, very effectively 
if we look at the infrastructure side of things. I saw it in my 
own State, that the Governor made a decision not to accept $6 
billion worth of assistance from the DOT and from the Port 
Authority in New York and New Jersey, because of concerns that 
there might be overruns in building this tunnel. So critical 
for us to continue to get cars off the road.
    This by the estimates that were available would have taken 
22,000 cars a day off the road. It would have created 44,000 
jobs immediately in the construction area, where there are 
plenty of people shovel-ready, ready to get going, they can't 
wait.
    And last, to create a better avenue for those who want to 
work in the city of New York, or vice versa, or those who want 
to live in New Jersey and move things along more efficiently. 
And it was mind-boggling, to say the least, to hear that 
decision by the Governor was being made.
    And I look back in history and it may be a surprise, but 
I'm old enough to remember WPA and some of the other things. I 
even remember when the George Washington Bridge was being 
built. They said it wouldn't last, but there it is. In any 
event, what happened? It was the Washington Bridge between New 
York, the largest crossing facility between New York and New 
Jersey. George Washington Bridge was built during the Great 
Depression. The interState highways built over a 40-year span, 
even when the Country was in recession.
    The fact is, that if we short transportation now, we will 
be selling the Country short in the future. And that is not why 
we are here. But we do need to make the smart investments. 
Simply building more highways won't solve our transportation 
problem, make us more competitive. We need a national, 
strategic transportation policy that establishes clear, 
measurable goals for the future and ends the checkerboard 
approach that has plagued our transportation system far too 
long.
    And while we shouldn't, in my view, be adding more lanes on 
our highways, we ought to be repairing the infrastructure that 
we now have in place and keeping dangerously large and heavy 
trucks and their wear and tear off our bridges and highways. 
After all, a 21st century economy cannot be built on collapsing 
bridges and crumbling infrastructure.
    So we ought to be making substantial investments in mass 
transit, passenger rail, high speed rail. We are now planning 
to build a gateway tunnel, it is called, which will allow us to 
run more trains, faster trains, through the vital Northeast 
Corridor, create tens of thousands of construction jobs and 
permanent jobs. We ought to be putting more cargo on trains and 
ships, a move that will help get more trucks off the road and 
help us save fuel, boost productivity, improve the environment, 
reduce traffic. And we ought to make transportation safer by 
investing in systems that reduce things like drunk driving, 
more uses of all transportation networks, including bicycles if 
necessary and other things to encourage people to get out, not 
to jump in their cars.
    So if we don't prioritize smart transportation investments 
today, we will fall behind tomorrow. And I remind everybody 
that there were 100 million new Americans in a 30-year period. 
And it is predicted that the next 100 million is going to come 
at a much faster rate. And we have an infrastructure that isn't 
built for that kind of use. And we ought to wake up to the 
needs of not only tomorrow, but the days well after tomorrow.
    So thank you, Madam Chairman, for holding this hearing. It 
is important and I hope that we won't be the only ones 
listening to ourselves. Thank you.
    Senator Boxer. Well, I can assure you we are not. Because 
frankly, the work that went into this bill really came from 
stakeholders all over the Nation. And I think it is a good 
moment today. I am optimistic hearing what Senator Inhofe has 
said and Senator Sessions, Senator Baucus. I just feel good 
about the way we are going.
    Senator Boozman, keep up that spirit, sir.

            OPENING STATEMENT OF HON. JOHN BOOZMAN, 
            U.S. SENATOR FROM THE STATE OF ARKANSAS

    Senator Boozman. Well, thank you very much. I will keep up 
that spirit. I want to thank you, Chairman Boxer, and Ranking 
Member Inhofe, for your commitment to the bill, along with 
Senators Baucus and Vitter. The fact that the committee was 
able to reach an agreement on a bipartisan bill I think is 
nothing short of miraculous. And for this, I would like to 
thank all of you for your leadership.
    I would also like to thank our witnesses for appearing 
today and sharing their thoughts on the 2-year bill. While we 
still have work ahead of us as far as funding is concerned, I 
do believe this bill is an extremely important step in the 
right direction. We cannot afford to let current projects go 
unfinished. And that is a very real concern, without proper 
funding. In the State of Arkansas, we have a number of 
unfinished projects that are important to the State, but more 
importantly, of national significance that would greatly help 
the flow of commerce throughout the Country.
    Without appropriate investment in our Nation's 
infrastructure, thousands of jobs are directly and indirectly 
on the line. And the ability of our people to travel hangs in 
the balance. I am pleased the committee recognizes the problem 
such as this, and have worked hard to put forth a proposal that 
will hopefully address much of our needed infrastructure 
investments.
    Again, I am excited to discuss the details of this highway 
funding proposal. Without the dedication of the members here 
today, this would not be possible. With that, I yield back.
    Senator Boxer. I thank you so much for that.
    And we are going to get right to our panel. We are going to 
start with Hon. Antonio Villaraigosa, Mayor of the city of Los 
Angeles. I think everybody knows, well, right now, you are the 
head of the what do you call it, the President of the 
Conference of Mayors. Mayor Villaraigosa has done wonders in 
Los Angeles and continues to. This is an area that just has all 
the congestion and needs a leader like this. We are so proud. 
You have worked with all of us, and you have worked with 
Chairman Mica. So I just want to praise you for working across 
the aisle on this.
    We welcome you. I know you got in at 4 this morning and you 
are leaving at 1 today. So you just go, and if you need to 
leave, please, we understand. We are thrilled that you are 
here, Mayor.

STATEMENT OF HON. MAYOR ANTONIO R. VILLARAIGOSA, MAYOR, CITY OF 
                          LOS ANGELES

    Mayor Villaraigosa. Actually, I have to welcome about 50 
mayors from around the Country to my city at 5:30. So I may 
take you up on that.
    Madam Chair, Ranking Member Inhofe, and Senators Baucus and 
Boozman, and all of the members who I have had an opportunity 
to hear from, I dare say that those of us listening and 
watching and working with you marvel at the bipartisanship, the 
ability to work together. If we could just do that on many of 
the other issue facing the Nation, I think America would move 
forward even during these tough times.
    I know I speak for my fellow mayors around the Country, 
both Democrat and Republicans, when I say that this is a 
critical moment in our Nation. Hearing Senator Sanders a few 
minutes ago speak to the $2.2 trillion need just to get us to a 
passable grade, it boggles the mind, the challenges before us. 
With the future of Federal infrastructure investment in 
question, we are standing at a generational crossroads. I 
believe we need to think very carefully about how we choose the 
path ahead.
    Across the Country, from Portland, Oregon to Portland, 
Maine, one thing is clear: Americans need jobs now. I like to 
say with all of the debate around the deficit and the debt that 
when people walk up to me on the streets of Los Angeles, in 
fact, when they walk up to mayors all across the Country, they 
don't ask us about the debt and the deficit. I am not 
suggesting that those aren't important issues.
    But invariably they will say, Mayor, can you get me a job, 
I want to work. And we have a solution for them, you all have a 
solution for them. And that is to pass a transportation bill 
now. A bill like the one outlined by Chair Boxer and Ranking 
Member Inhofe would not only invest in our crumbling roads, our 
bridges, our tunnels, and our aging ports, airports, water 
treatment and power facilities, it would create a half a 
million jobs just right now. I want to applaud your leadership 
in developing the outline for MAP-21. It is a forward-looking 
proposal that would help create the world class infrastructure 
this Country needs.
    Obviously I come from Los Angeles, and for some of you, it 
is on the other side of the Country. And sometimes it seems 
like the other side of the world. But what people don't realize 
is that we move 44 percent of all the seaborne goods that enter 
the United States. Every single congressional district 
generates jobs because of the trade activity that occurs at our 
port. Our airport is the No. 1 destination airport in the 
United States.
    So we know first-hand that worldwide competition is 
demanding more of us than ever from our infrastructure system, 
just to remain competitive. I am very pleased to see that this 
committee's framework would include a national freight program. 
We also continue to grapple with growing congestion. You may 
have seen on the news last week Carmageddon. A day without a 
car in Los Angeles is a day that we don't enjoy very often. We 
were able to enjoy the other day.
    But what I tried to explain to everyone, we weren't just 
demolishing a bridge. We were connecting a system of HOV lanes 
from Orange County all the way to the San Fernando Valley, with 
the goal of reducing, moving traffic and reducing congestion 1 
minute a mile as a result of that HOV lane. Creating 18,000 
jobs just with that alone.
    So we continue to grapple with congestion and the impact on 
mobility and jobs. And take it from a native Angeleno, 
congestion can be a job killer. It is pretty simple: when our 
infrastructure functions efficiently, employers expand their 
businesses. When congestion and other constraints choke 
movement of people and goods, companies pull up stakes and the 
jobs leave with them.
    Now, L.A. is no different from other major metropolitan 
areas. Our cities are the heart, lungs and muscle of the 
Nation's economy. Let me give you an example. If you took New 
York, L.A. and Chicago, our economic output is roughly the 
equivalent of France. If you took the 10 largest cities in the 
United States of America, they would be the third largest 
nation in the world, roughly $5 trillion economy after the $5.9 
trillion economy of China and the $14.9 trillion economy of the 
United States.
    The key to those economies is investing in infrastructure, 
investing in the movement of people and goods. The current 
extension of the Surface Transportation bill expires on 
September 30th. The clock is ticking. And we are at a critical 
fork. We can put people back to work and invest in the 
infrastructure our Nation and our cities desperately need, or 
we can lose ground against our competitors in the way that 
Senator Sanders just said.
    Put simply, we cannot afford any cuts to infrastructure 
spending, and at the very least we must maintain current 
levels. According to the DOT, a 30 percent reduction in 
transportation funding would equate to a loss of 630,000 
highway and transportation jobs.
    So I stand with you, and I know that the mayors across the 
Country have come out unanimously in support of this effort. A 
2-year bill, which would invest about a $109 billion, my 
recollection is, as Senator Sanders said, when China is 
investing four times the rate of what the United States is, and 
what he didn't say is, they are also footing most of the bill 
for Europe. So Europe is ahead of us, China four and a half 
times ahead of us, but also funding. What he didn't say is, we 
are not even competing with the rest of the developing world. 
Latin America is investing more in infrastructure than we are.
    We believe, and the U.S. Conference of Mayors has come out 
in support, we have said that we can't keep building bridges in 
Baghdad and Kandahar and not Baltimore and Kansas City. The 
American people need and deserve a world class infrastructure, 
which is why we are pleased that our bipartisan America Fast 
Forward proposal has been included in both the House and Senate 
bills.
    And I too want to acknowledge Chair Mica for his support. 
It was a great thing to see Senator Boxer, Senator Inhofe, in 
support, Congress member Mica, Tom Donahue, Richard Trumpka, 
all in support of the idea that we need to invest in 
infrastructure and jobs that come with it.
    According to the L.A. County Economic Development 
Corporation, your committee's proposal to increase TIFIA budget 
authority to a billion dollars has the power to create, just 
with that alone, 500,000 jobs in just 2 years, and over a 
million jobs over a 6-year period of time. Why? Because it is a 
30 to one leverage with that money. At a time of high deficits 
and debt, this is the right time to make those kinds of 
investments. I hope that the Senate and the House will also 
look, at some point, at a transportation bond program that will 
help us expand on that effort as well.
    There are now 113 bipartisan mayors who have gotten behind 
this effort. I want to thank all of you for your work. I look 
forward to working with you to pass this. I hope that this 
support on a bipartisan basis will bleed through on the many 
other issues facing the Nation today. America's cities deserve 
no less.
    Thank you very much.
    [The prepared statement of Mayor Villaraigosa follows:]
    
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Boxer. Thank you, Mayor. And we know that you have 
to rush off to the airport. Have a safe, good flight.
    Our next witness is Mr. Terence M. O'Sullivan, President of 
the Laborers' International Union of North America. Welcome, 
sir.

    STATEMENT OF TERENCE M. O'SULLIVAN, GENERAL PRESIDENT, 
         LABORERS' INTERNATIONAL UNION OF NORTH AMERICA

    Mr. O'Sullivan. Thank you.
    On behalf of the working men and women of LIUNA, the 
Laborers' International Union of North America, I would like to 
thank you, Chairman Boxer, Ranking Member Inhofe, and all the 
members of the committee for the opportunity to testify today. 
Our perspective on critical infrastructure investment is 
grounded in LIUNA as an organization of a half million men and 
women who predominantly do the work of building America, our 
roads, bridges, transit systems and other fundamental pieces of 
the backbone of our Nation's economy.
    Like all Americans, we are concerned about falling behind 
in the world. We are concerned about China, for example, who 
investments almost 9 percent of its GDP, or almost $680 billion 
in infrastructure this year, while we are struggling to patch 
potholes. Meanwhile, there are 1.3 men and women who are read, 
willing and trained to rebuild America's crumbling 
transportation systems, but through no fault of their own are 
jobless.
    The nearly 2 years of delay in passing a robust highway 
bill is not a recipe for economic growth or competitiveness. It 
is a recipe for disaster. That is one reason LIUNA is gratified 
and thankful to testify today and contrast, the outline of your 
highway bill with the outline put forth by the U.S. House of 
Representatives.
    We join with partners in the environmental community, like 
the blue Green Alliance, and with the business community, 
including the U.S. Chamber of Commerce, in pointing out that 
the House proposal locks in failure for 6 years. In effect, it 
gives up on America. Likewise, we join with others in praising 
your political courage and focus on maintaining a foundation 
for the future which is illustrated by your bipartisan 
proposal.
    I want to emphasize that to have the necessary economic 
impact, investments must be made through the existing core 
program and highway trust fund, and that there must be a 
commitment that any shortfalls do not result in less investment 
than is currently made.
    LIUNA welcomes proposals to leverage more private 
investments and believes that properly structured, innovative 
financing mechanisms, such as the Infrastructure Bank, could 
provide a valuable supplement. But we believe some of these 
proposals are years away from creating a significant number of 
jobs.
    Like many others, we also believe there must be greater 
transparency. We have all heard about the bridge to nowhere. 
But we must remember that there are plenty of bridges to 
somewhere that are deficient or obsolete. In fact, 4 years 
after the I-35 bridge collapse in Minneapolis, 27 percent of 
our bridges still are structurally deficient or functionally 
obsolete.
    In stark contrast to this committee's proposal, the House 
outline would result in massive job losses, as many as 490,000 
lost jobs, related just to highway work in the first year 
alone. And it would result in a dramatic acceleration of the 
decline of our Nation's transportation infrastructure. One 
could argue that those who crafted the House proposal have 
found the will to justify billions of dollars in tax breaks and 
loopholes for corporations and the wealthy while cutting 
investment that all Americans and our economy depends on.
    This may be the summer of the blockbuster Harry Potter 
movie, but a magic wand won't prevent what for so many 
Americans and for our Nation will be the real deathly hallows, 
as more jobs disappear, more families suffer and the U.S. falls 
further behind. Like many Americans, we are frustrated by the 
inability of some in Washington, DC. to put one and one 
together and match those who desperately need work with our 
critical infrastructure needs.
    Just last night, I held a conference call with thousands of 
our members' activists about mobilizing for a highway bill that 
builds America. We will make sure their voices, their dreams 
and their hardships are heard loud and clear. LIUNA's 
perspective is that this is a no-brainer. We can put people 
back to work, spur economic growth and create real assets for 
taxpayers and future generations. We can again be the Nation 
that does big things, even in trying times. We can fulfill our 
obligation to make sure what we do leaves our Nation better off 
than the way that we found it.
    Chairman Boxer, Ranking Member Inhofe, members of the 
committee, we can build America so America works. Thank you for 
the privilege of addressing you today.
    [The prepared statement of Mr. O'Sullivan follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Boxer. Thank you, President O'Sullivan. I just hope 
that this phone call that you had with all those workers will 
continue, because we need the people to communicate with those 
on the Finance Committee on both sides of the aisle and this 
committee that you really need us to do this. A lot of you said 
it took courage for us to come together. We need to have you in 
the background with a loud voice. So thank you for that.
    Mr. O'Sullivan. Thank you.
    Senator Boxer. And our next speaker, Donald James, Chairman 
and Chief Executive Officer of Vulcan Materials. You had a 
fabulous introduction from Senator Sessions. We welcome you.

  STATEMENT OF DONALD M. JAMES, CHAIRMAN AND CHIEF EXECUTIVE 
                   OFFICER, VULCAN MATERIALS

    Mr. James. Thank you, Chairman Boxer and Ranking Member 
Inhofe, for the invitation to testify today.
    As Senator Sessions said in his gracious introduction, 
Vulcan Materials is the largest producer of construction 
aggregates in the United States. We are here today to address 
the critical situation with respect to the Federal aid highway 
and transit programs that exist in this Country, specifically 
with respect to the next 2 years, fiscal years 2012 and 2013.
    At the outset, let me say that it is our view that highway 
and transit programs were not created by Congress for the 
purpose of providing jobs. Although they do in fact do a really 
great job of providing jobs, the real purpose of the program is 
bigger and much more important than that. It is to provide the 
Nation with Transportation infrastructure that is essential to 
the efficient functioning of the U.S. economy. Transportation 
infrastructure is a basic and fundamental good. Every man, 
woman and child in this Country is a direct beneficiary of 
Federal investment in infrastructure, as is every business in 
this Country.
    Providing that transportation infrastructure, properly 
maintaining and sustaining it, is a core Federal 
responsibility. The lifeblood of the U.S. economy flows through 
our transportation system. In funding it, Congress provides a 
critical public benefit that extends decades beyond the 
construction project. Our Nation's economic competitiveness, 
our economy's growth and the creation of jobs year after year 
are directly correlated to the health and quality of our 
infrastructure.
    For example, our Nation's roads and bridges move close to 
$40 billion worth of goods every day, but could move 
significantly more were it not for traffic congestion, which 
costs our Nation $87 billion annually. The construction sector 
of our economy that implements this core responsibility will be 
severely tested in fiscal years 2012 and 2013. The downturn in 
the economy has placed historic economic stress on the 
businesses that build and maintain our transportation system. 
Commercial and residential construction in the U.S. has dropped 
75 percent to historic lows. Short and medium term prospects 
for improvement remain bleak.
    Aggregate volumes at Vulcan are down 50 percent. Our 
employment has dropped by 30 percent. Transportation 
infrastructure construction is the one somewhat stable 
construction sector in the U.S. economy today. The annual 
Federal funding for infrastructure has been vitally important, 
while at the same time enhancing economic efficiency 
nationwide.
    Congress wisely chose to maintain the Fiscal Year 2010 
baseline for Fiscal Year 2011 Federal highway programs, even 
while reducing spending in other areas. As a result, many U.S. 
companies did not have to lay off even more employees as a 
direct result of these cuts. Instead, they have been able to 
continue providing the public and economic benefits that the 
transportation and construction industry produces.
    Throughout the recession, we have of necessity had to 
reduce our work force and have taken additional measures to 
size our company to meet the current economy. You face similar 
challenges in reducing the size of government. When we reduced 
our company's size and the number of our employees, we had an 
obligation to do it in a way to preserve our company and to 
position it for future growth. The cuts and layoffs were 
painful but strategic, designed to ultimately make us stronger 
and better. If we had ignored this core responsibility and cut 
arbitrarily across the board, we would have damaged our ability 
to grow, to rehire our employees, to survive and flourish again 
as a leading U.S. company.
    In roughly 10 weeks, the current authorization will expire. 
It is critical to determine now what size Federal program is 
required to maintain the Nation's transportation infrastructure 
in order to grow the economy. We strongly support the funding 
on a bipartisan level at the current baseline to continue 
Congress' long commitment to this core responsibility.
    Our Nation is at a critical crossroads economically. I ask 
you to consider the great importance of prioritizing spending 
cuts in a way that preserves the Nation's potential for 
economic growth. Your bipartisan decision on the baseline 
determine whether we can begin to climb out of this recession 
and rebuild our work forces or experience further decline and 
lose more employees during fiscal years 2012 and 2013. Our 
Nation's ability to grow economically, to continue to create 
additional taxpayers, will be subverted if we do not maintain 
the baseline.
    We have all heard that the job loss, if we do nothing more 
than fund construction at the current gas tax receipts, we will 
lose hundreds of thousands of jobs all across this Country. As 
bad as this is, the true calamity will occur in the ongoing 
national economic impairment, of which there are few if any 
existing and accepted metrics.
    Our ability to produce and export U.S. products efficiently 
is directly tied to the quality of our highway infrastructure. 
Absent adequate funding, we will experience the corrosive 
consequences of competitive losses. As we have all heard today 
from other witnesses and from members of this committee, the 
infrastructure investments that China, India, the European 
Union, Brazil, Canada are making in their infrastructure. It 
will be prudent to avoid these consequences of loss of 
competitiveness before they occur.
    Bipartisan congressional support will ensure the public 
good transportation infrastructure that enabled us to become 
the greatest economy in the world and which can preserve that 
status for future generations. Thank you very much.
    [The prepared statement of Mr. James follows:]
    
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
       
    Senator Boxer. Thank you for your eloquent statement.
    We are happy to welcome back Susan Martinovich, Director, 
Nevada Department of Transportation, on behalf of the American 
Association of State Highway and Transportation Officials. And 
I want to thank again your organization for being part of this 
great coalition that is behind our bipartisan approach.

    STATEMENT OF SUSAN MARTINOVICH, P.E., DIRECTOR, NEVADA 
    DEPARTMENT OF TRANSPORTATION, ON BEHALF OF THE AMERICAN 
   ASSOCIATION OF STATE HIGHWAY AND TRANSPORTATION OFFICIALS

    Ms. Martinovich. Thank you, Senator.
    Good morning. I thank you for the opportunity on behalf of 
State DOTs to share our views on surface transportation 
reauthorization and the bill summary that you recently 
released. On behalf of AASHTO, I would like to express 
gratitude to you, Madam Chair, Senators Baucus, Inhofe and 
Vitter, for your leadership in advancing a bipartisan 
reauthorization measure. We do recognize that in this time of 
economic and fiscal distress, producing a bipartisan bill 
required tremendous compromise on all sides. And we truly 
applaud your efforts.
    Your proposal merits our strong support. If it succeeds, 
over 500,000 jobs will be saved and hundreds of projects vital 
to America's competitiveness will be made possible.
    Let me make three brief points on your proposal. First, the 
Fiscal Year 2012 budget resolution approved by the House in the 
past spring would lead to an almost 35 percent cut in Federal 
and highway transit funding. This has been mentioned, that it 
would have a devastating effect on many State transportation 
programs.
    In Nevada, this would result in a $122 million cut in 
funding next year, with a major impact, one of those impacts 
being our Project Neon, which is scheduled to begin 
construction in 2013. This is a $1.7 billion reconstruction 
project on InterState 15 in downtown Las Vegas. The I-15 is a 
major corridor, multi-State corridor for east-west goods 
movement for the Country. And a $122 million cut to our program 
would delay that start date.
    But it is not about the start date. That is important. But 
it is also about people. There are developers, there are 
businesses, there are individual homeowners whose lives are on 
hold and in limbo, waiting to see if we have the funding to 
acquire their property or to even start the project.
    We understand that in order to maintain the current funding 
levels, a revenue gap of approximately $6 per year is most 
likely needed to be filled. And we urge the Senate Finance 
Committee, working with your committee, to find that offset in 
revenues to fill the gap. And we recognize the current Highway 
Trust Fund revenue limitations, but advise that it is 
absolutely essential to maintain current funding levels. We 
need this not only to sustain hundreds and thousands of jobs 
and to keep essential transportation projects moving, but what 
has also been said, it is for the economy of this Country.
    Second, States have a critical need for program stability 
and the certainty to plan, develop and construct transportation 
projects. Without this, the States could have to avoid risk by 
deferring investments in major multi-year projects. Simply put, 
States will not advance the first phase of a project if funding 
required to complete the project is not available in subsequent 
years.
    So with major projects deferred, construction companies 
will not make the material and equipment investments, they will 
be forced to further cut their work force. And this trickles 
down to even more jobs and businesses that indirectly support 
the construction industry.
    So while States would prefer a 6-year reauthorization bill, 
a 2-year bill provides the opportunity to advance toward that 
long-term goal. And it is a vast improvement over the 
uncertainty of the month to month extensions that we have had 
over the past 2 years.
    Third, the State DOTs have been advocating many of the 
policy reforms similar to those proposed in your legislation. 
We recognize that the provisions in your bill reflect many of 
the compromises from all viewpoints. And we thank you for that 
spirit of cooperation.
    It appears from our review that we are in agreement where 
some of the key policy reforms are needed: program 
consolidation and flexibility, the use of performance measures, 
expansion of innovative finance and further streamlining to 
accelerate project delivery. There are two policy reforms we 
are especially supportive of, and that is the enhancement and 
expansion of the TIFIA loan and loan guarantee program. 
However, I do want to caution that innovative financing 
mechanisms, including infrastructure banks, are valuable 
financing supplements. But they cannot replace the need for 
funding of the base program.
    We are also supportive of provisions to reduce bureaucratic 
hurdles for projects with no significant environmental impacts 
and provisions to accelerate projects approved within specified 
deadlines. We hope your bill will also encourage increased 
cooperation with the regulatory agencies. And I want to 
emphasize here that we strongly believe that at constant or 
reduced funding levels, Congress should be even more aggressive 
in removing regulatory burdens and providing States with 
greater flexibility to deliver projects.
    Finally, I would like to reiterate what I said at the 
beginning, that we believe a bipartisan measure, which has been 
a cooperative effort between you, Madam Chairman, and Senators 
Baucus, Inhofe and Vitter, merits our support. Investment in 
transportation truly is an investment that is immediate and has 
long-term benefits to this Country. We respectfully urge you to 
continue this bipartisan effort and thank you very much.
    [The prepared statement of Ms. Martinovich follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    Senator Boxer. Thank you.
    And now we call upon Hon. Gary Ridley, Secretary of the 
Oklahoma Department of Transportation. Senator Inhofe has given 
you a very warm introduction. We welcome you.

 STATEMENT OF HON. GARY RIDLEY, SECRETARY, OKLAHOMA DEPARTMENT 
                       OF TRANSPORTATION

    Mr. Ridley. Madam Chair, members of the committee, my name 
is Gary Ridley. I am Secretary of Transportation in Oklahoma. 
And I am here today to testify on behalf of the Oklahoma 
Department of Transportation.
    First, we want to thank you, Madam Chair, along with 
Ranking Member Senator Inhofe and the other members of the 
committee for your leadership and efforts to sustain funding 
levels and increase the efficiency of delivering the 
transportation projects in the reauthorization.
    As we consider the deficiencies of our national 
transportation system in the next highway bill, we recognize 
the challenges faced by Congress are significant. 
Transportation departments across the Country are hopeful that 
Congress can make every effort to at least fund the 
transportation at historic levels.
    However, we are acutely aware of the difficulties that are 
presented by the limitations of the projected highway trust 
fund revenue. Your work to find ways to benchmark investments 
and direct more transportation dollars to the core 
infrastructure is appreciated.
    When considering a reduced Federal funding projection, none 
of the critical needed Transportation projects currently being 
prepared for delivery in Oklahoma can be held harmless in the 
rebalancing of our fiscally constrained construction work plan. 
In addition, your renewed focus on core transportation 
infrastructure and your review and consolidation of programs 
that mandate the commitment of the highway trust fund dollars 
to fringe activities is welcome.
    If eligibilities are retained, the decision to commit 
transportation resources to these activities should be left to 
the States alone. Even more so when our State and Federal 
budgets are under extreme pressure and our performance is 
proposed to be measured by key outcomes, such as reducing 
fatalities, improving bridges and fixing roads and reducing 
congestion.
    The utilization of Garvey, TIFIA, public-private 
partnerships, Build America bonds, infrastructure banks and 
other such methodologies that have proven effective in 
financing certain and well-defined transportation systems. 
However, we should be mindful that none of these financing 
opportunities provide new revenues or sustainable long-term 
funding. It is important to ensure that financing options are 
not held as the Federal Government's best or only solution to 
stem the further decline of our national transportation system.
    The Nation requires new and effective transportation 
revenue streams, but does not need new encouragement to incur 
additional debt. Extreme care must be exercised when 
considering such programs in order to avoid over-projecting and 
over-extending our limited resources.
    States should not be left to bear the financial burden of a 
national Transportation system alone. We recognize that a 
consistent authorization with reasonable funding commitment and 
a term that extends beyond the reach of the endless extension 
acts, while the complete fiscal resolution of our national 
Transportation funding crisis may not yet be at hand, the value 
of the legislation provisions proposed to facilitate a more 
effective project and program delivery system should not be 
discounted.
    Reducing environmental hurdles for projects that have no 
significant environmental impacts will be extremely beneficial. 
For example, the last 3 years, we let the contract almost 200 
routine projects that were less than $5 million cost. All these 
projects required NEPA documents that typically took 30 to 180 
days to complete. Assuming that such projects would meet the 
criteria for expedited process or a complete NEPA exemption, 
then Oklahoma would have had the opportunity in many cases to 
reduce the process cost and shorten the project delivery time 
on each by a like amount.
    The introduction of these ideas is a giant step in the 
right direction. The preparation efforts and time saved to 
deliver projects that meet defined criteria will not only 
translate as a cost and time saving to the agency, but will 
accelerate a direct user benefit to commerce and the traveling 
public. Also, the State and Federal regulatory resources and 
lead agencies will have the opportunity to focus more of their 
internal resources on progressing other, large scale proposed 
Transportation improvements in a more timely and effective 
manner.
    However, even as some progress is evident, we have recently 
become aware that the EPA and the Corps of Engineers are 
seeking to expand their jurisdictional authority over new 
waters through issuance of clarification guidelines. Such 
guidelines are greatly concerning, as more and more regulation 
creeps into the simple drainage ditches and minor tributaries 
that were long considered non-jurisdictional.
    In Oklahoma, Corps of Engineers-issued permits and 
mitigation members approval is becoming more and more difficult 
to obtain in a timely manner, due to the resources strain on 
the existing broad jurisdictional assertion. This situation can 
only be exacerbated by the expanded jurisdictional authority 
under the proposed guidelines. Regulatory guidelines should not 
overState the law, should be easily manageable by the 
responsible agency with the resources anticipated to be 
available, and above all, should be determined reasonable by 
State governments and by the private sector.
    It is critical that a balance is maintained that a 
project's environment does not restrict the delivery of 
critical needed safety and condition-related improvements or 
the economic growth and competitiveness and development of our 
Nation.
    Thank you, Madam Chair, Ranking Member Inhofe, for the 
opportunity to testify. We are grateful to the efforts of the 
committee and Congress to craft and fund a transportation 
compromise that will carry us to a multi-year authorization. I 
will be glad to answer any questions.
    [The prepared statement of Mr. Ridley follows:]
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Senator Boxer. Thank you so much, Mr. Ridley.
    Our next witness is Mr. Deron Lovaas, Transportation Policy 
Director of the National Resources Defense Council. Welcome.

  STATEMENT OF DERON LOVAAS, TRANSPORTATION POLICY DIRECTOR, 
               NATURAL RESOURCES DEFENSE COUNCIL

    Mr. Lovaas. Thank you, Chairman Boxer, Ranking Member 
Inhofe, members of the committee, for inviting me to testify 
today.
    I want you to imagine a world devoid of a national 
Transportation system. In that world, we would face gridlock 
and paralysis. Ranchers and farmers would be unable to get 
products to markets. Manufacturers of vehicles and parts would 
be unable to ship in the U.S. or overseas. Transportation is 
clearly a key means to a variety of ends that boost the 
economy.
    Current policy, unfortunately, undermines America's safety, 
energy and climate security and economy. Now is the time to 
rectify that by, first, investing wisely by setting national 
mobility and access, safety, economic impact, energy use and 
environmental quality objectives. Public investments in 
infrastructure can yield large economic productivity gains.
    A billion dollars of investment in public Transportation, 
for example, yields about $3.5 billion of GDP. Annual 
investments of $30 billion in America's public transit systems 
and $10 billion in intra-city and high-speed rail would create 
3.7 million jobs overall and more than 600,000 jobs in 
manufacturing over 6 years.
    In addition, these investment would generate $60 billion in 
net annual gross domestic product, GDP, nearly $45 billion in 
annual worker income and $14 billion in annual tax revenue, 
spurring additional growth throughout the economy.
    Current fiscal constraints warrant collection and use of 
cost and benefit data during planning and project selection and 
design. We need to make sure to invest carefully. Government 
should turn to a tool in the kit of successful companies: 
strategic planning, including the use of scenario building. One 
recent study pegs the cost differential between strategic and 
business as usual investment at 12 percent savings for 
Sacramento, 24 percent for Albuquerque and a whopping 51 
percent for Nashville. There are big potential savings if we 
look seriously at the future by building scenarios.
    Two, we need to fix it first with clearer, more aggressive 
repair and maintenance policy. Deferred maintenance, let's be 
clear, is a national crisis. Five hundred bridges in America 
failed between 1989 and 2003. And today, nearly 70,000 bridges 
across the Country are in disrepair. As former White House 
economic advisor Larry Summers put it, ``You run a deficit both 
when you borrow money and when you need it for maintenance that 
needs to be done. Either way, you are imposing a cost on future 
generations.'
    No. 3, we need to break our oil habit by delivering 
mobility choice driven by a national oil savings objective for 
our transportation policy and similar objectives for States and 
regions. Transportation drives America's dependence on foreign 
oil. We have nearly weaned our electricity sector off of oil, 
thankfully, but Transportation remains almost entirely 
dependent. Nearly 70 percent of U.S. oil use is for 
transportation. Overall, this translates to a 9,000 gallon per 
second habit.
    How do we reduce that dependence? Well, raising the bar on 
fuel economy performance for our vehicles, which we are making 
good progress on, is the first step. Second, providing 
consumers with more fuel choices by making cars pluggable. And 
a third prong we need to attack oil dependence is greater 
mobility choice. Consumers deserve more options for travel, 
including virtual travel, high occupancy toll lanes, bus rapid 
transit, telecommuting, technology that improves road and 
transit traffic flow, as well as convenient and safe 
opportunities to walk and bike.
    Four, we need to secure funding and financing with new 
tools. And I think we are all in agreement on some of those 
tools. We favor looking at tools like an oil security fee, an 
increase in the gas tax, or a VMT fee over the long run, as 
well as innovative financing. Expansion of TIFIA and other 
tools involving public-private partnerships, such as 
infrastructure banks, should award assistance on a competitive 
basis, a focus on maximizing returns based on measurable 
outcomes and fuel savings and pollution cuts. It is important 
that performance measurement and accountability be a rigorous 
component of any expanded program to make sure we leverage 
taxpayer dollars.
    Five, we do need to improve project delivery by tackling 
real causes and not compromising environmental reviews. Let's 
be clear: environmental reviews account for only a small share 
of transportation project delays. Lack of adequate financing is 
a bigger factor. And few projects actually need an 
environmental impact statement with even fewer subject to 
controversy. Congress shouldn't legislate by anecdote based on 
horror stories, but evaluate project delays and tackle then 
with planning improvements and adequate resources for 
reviewers.
    Six, we need to move good faster, cleaner and cheaper with 
a freight program to facilitate affordable goods movement while 
reducing environmental harms. We can meet growing demand for 
goods while saving oil as well as reducing air pollution, water 
pollution and noise through targeted provisions. Specifically, 
we favor a competitive grant program to fund innovative 
projects based on energy and environmental performance criteria 
developed in coordination with environmental stakeholders.
    Last but not least, we need to protect our natural 
resources by setting a stormwater runoff performance standard 
for new and rehabilitated highways and roads. Smart pollution 
mitigation strategies, such as green roads and highways, are a 
cost-effective way to reduce stormwater runoff, flooding and 
help meet clean water requirements.
    Thank you for the opportunity to speak with you today. We 
need to press forward with wise investments in a smarter and 
greener Transportation program. I look forward to working with 
you on that. Thank you.
    [The prepared statement of Mr. Lovaas follows:]
    
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
    Senator Boxer. Thank you so much.
    And last but not least, we are very happy to welcome back 
Mr. Greg Cohen, President and CEO of the American Highway Users 
Alliance. Welcome.

  STATEMENT OF GREG COHEN, PRESIDENT, AMERICAN HIGHWAY USERS 
                            ALLIANCE

    Mr. Cohen. Thank you, Madam Chairman, Ranking Member 
Inhofe, members of the committee. I am honored to appear before 
you here today to present testimony indicating our strong 
support of your plan to enact the bipartisan MAP-21 bill this 
year.
    Highway Users is the only organized national non-profit 
coalition that represents the interests of the motoring public 
across all the highway modes. We promote Federal, State and 
local policies that improve safety and mobility, and our 
members include AAA clubs, trucking and bus companies, 
motorcyclists, RVers and others that contribute user fees to 
the trust fund. These members and several hundred other member 
businesses and associations represent millions of highway users 
from coast to coast.
    We have worked closely with members of this committee and 
your excellent, professional staff to advocate for a new vision 
of the Federal Aid Highway program that is reformed, robust, 
streamlined, and reflects the core priorities that serve the 
national interests. We congratulate the committee on this 
week's release of your policy outline, which largely reflects 
priorities that we share with you.
    Our goal is not to please traditional transportation trade 
associations in Washington, but more importantly, to serve the 
interests of the public at large, particularly those who pay 
the highway user fees. Unfortunately, the unwieldy and complex 
authorization bills of the recent past generation, lacking in 
direction and full of earmarks, put this committee at a public 
relations disadvantage before you even began working 2 years 
ago on this. That is why it is worth emphasizing again how 
delighted we are that this is a Big Four bill that sets a new 
course focused on reform.
    We are thrilled that despite the current divisive political 
environment, MAP-21 is being negotiated to receive the support 
from some of the most progressive and some of the most 
conservative members of the U.S. Senate. Bipartisan cooperation 
on the surface transportation bill is a tradition worth 
keeping.
    We strongly support passage both of this bill and the House 
bill so that a conference committee can be convened quickly, 
and so that you can complete your work. The worst possible 
outcome would be if Congress fails to make progress and we end 
up with a long-term extension bill that cuts funding and fails 
to reform the program.
    The Federal highway program is of much more value than 
simply being a jobs bill. Mobility and safety investments 
create broad economic growth, improve our quality of life, and 
give America competitive advantage in international trade. For 
example, SAIC has fond that safety investments under the HSIP 
program have saved $43 in societal costs for every $1 spent. 
According to U.S. DOT, investing as much as $175 billion per 
year on highway projects would have a positive benefit to cost 
ratio. And at the current funding levels, a performance-based 
highway program would deliver hundreds of billions of dollars 
of economic benefits each year to Americans in every State in 
the Country for only $40 billion in annual user costs.
    We support your efforts to prevent cuts to the funding of 
the highway program. Due to the shortfall in the highway trust 
fund and the seemingly impossible task of raising highway user 
fees on fuel, we encourage all the committees that are involved 
to consider supplementing highway programs with general funds 
over the next few years. However, it is important to note that 
we have always supported highway users paying their full share 
for the highway program. And we agree with the committee that 
growing the TIFIA program is a better plan than the National 
Infrastructure Fund. We also encourage Senate consideration of 
Senator Wyden's TRIP bond bill, which would supplement funding 
for all States.
    We applaud this committee for taking a strong position on 
reducing bureaucracy and improving project delivery. We 
understand that the committee's plan is to keep all substantive 
environmental protections in place. At the same time, we can 
improve interagency procedures and establish deadlines for NEPA 
comments and permit reviews. According to U.S. DOT, a major 
highway project can take 9 to 19 years to complete. And every 
10 years that a project is delayed, the costs double.
    The Highway Users Alliance also supports streamlined 
transportation planning processes that include consultation 
with a wide range of interested parties and ensures that 
representatives of motorists, private bus companies, truckers 
and other highway user fee-paying groups are at the table. 
However, with money in short supply and time of the essence, 
Congress should avoid the addition of new planning, additional 
planning layers or mandates that force cooperation or 
coordination with new groups of reviewers. Transportation 
planning is already extremely complex. I know, I have done it. 
Federal mandates that slow the process give new actors veto 
power, reduce the primacy of transportation considerations and 
transportation planning, mandate experimental planning 
techniques or create additional hurdles for U.S. DOT to approve 
plans. These have to be avoided.
    Most of the core programs proposed by the committee are 
similar to those that we have proposed in our authorization 
briefs and in our previous testimony. In particular, we 
congratulate you and strongly support your core programs for 
safety, freight and the National highway system program. Safety 
is our top priority and we urge the committee to even consider 
additional safety proposals, such as the Baucus safety bill and 
others that we endorsed in our committee testimony back in 
April 2010.
    The new freight program is critical to improve our commerce 
corridors. The new national highway system program will improve 
just 4 percent of the roads, but those are the roads that are 
these most used, and serve as our Nation's economic arteries.
    In conclusion, this committee has an extraordinarily 
opportunity to help improve the economy, reduce congestion, 
save tens of thousands of lives by expediting the authorization 
of MAP-21 with a reformed, streamlined and robust highway and 
transportation program. We greatly appreciate being your 
partner in this effort and would be happy to answer any 
questions.
    [The prepared statement of Mr. Cohen follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
      
    Senator Boxer. Well, thank you very much to all of our 
panelists.
    Mayor, I do have some questions for you, so don't go just 
yet.
    I want to just say that I thought, Mr. Cohen, you really 
brought it home to me, that a lot of the reforms that are in 
this bill, probably all of them, and there are many, really 
came from the people out there who have been working on various 
commissions and committees, and have worked with us on both 
sides of the aisle. And we really appreciate it. And what we 
were able to do was look at all these proposals and finally do 
something about this program which, let's just say it was 
sprawling. It was just too many little things. And we managed 
to consolidate and save the things that we worked hard together 
on.
    There were some differences here. We gave and we took. It 
was hard. But I think at the end of the day we managed to get 
this together.
    Mayor, I want to make a point here which I know you agree 
with. The basic Highway Trust Fund, that is how we fund, that 
is the bread and butter. It is what Mr. James referred to, it 
is what Mr. Ridley referred to, all of you have referred to it, 
most of you have referred to it. That is the bread and butter 
program that we are talking about.
    And that is why I appreciate all the new ideas that are 
coming forward, and by the way, support them, I think, whatever 
they are. But we can't allow those ideas, whether it is an 
infrastructure bank or anything else, to replace the basic 
funding mechanism we have here. And I know that Senator Baucus 
has on his plate, as soon as we act, he is going to do 
everything in his power.
    But you need to help him, support him, and I say this as 
someone who has been around here and on this committee since 
the day I came to the Senate, so that he and his members feel, 
and Senator Carper is on that committee, I don't know who else 
here is, but the bottom line is, they have to feel that this is 
a priority.
    I already feel that, because working for a year doing the 
conference calls with you, you must have been sick of me 
already every other week on the phone talking about where are 
we and how can we move and all the rest. Well, I felt the 
support.
    But the support now has to continue with this committee, 
but also with the Finance Committee. Because if they don't 
sense that America wants this, it is going to be very 
difficult.
    So I want to make that case. As of today, I think you have 
seen this bipartisan support here. So Mayor, I want to thank 
you personally, but also your organization now that you head, 
the Conference of Mayors. Because you are bipartisan mayors and 
you have worked with us, very clearly. And you have worked with 
us on the need to have a strong core bill, which is maintaining 
the levels that we have now. And you have worked with us also 
on Safe Routes to Schools, because that is so crucial, and bike 
paths, and we kept it, and recreational trails, and we kept it.
    Tough, tough debates, giving here, taking there. But that 
has remained in the bill.
    I want to ask you a question about TIFIA. For the 
information of all Senators, because this is so, to me, so 
exciting. When you came to me 2 years ago with your bipartisan 
group, you had labor, you had management, you had chamber of 
commerce, everybody. And you said, Los Angeles has passed a 
half cent sales tax, and we have a list of programs, I think 
you said nine that the people said they want to do. But it is 
going to take us 30 years to get all the funding.
    And you, Federal Government, if you could come up front and 
help us at the beginning and move these projects forward. You 
know you have a steady stream of income coming behind it. Would 
you be willing to come out.
    And then we talked about it, and I went to Senator Inhofe 
and I said, here is an idea whose time has come. The cities and 
the counties all over this Nation are stepping forward. But it 
takes time to get the dollars in. So through the existing TIFIA 
program, and I give credit to my chief of staff and chief 
counsel, Bettina Poirier, for saying, you know, I think there 
is already a program here. It is small, but it could meet the 
needs here. We were able to help already with one project.
    And I wonder if you could just explain to my colleagues 
now, because they support this robust, and so does Chairman 
Mica, robust increase, how TIFIA works and what it is enabling 
your city to do, and of course other projects were funded also 
through TIFIA. And also if you could speak to some of the 
reforms, if you are familiar with them. If not, we will put 
those in the record. Go ahead.
    Mayor Villaraigosa. Yes, thank you, Madam Chair. And again, 
I want to thank you and the committee for the work that you did 
on this issue.
    L.A., in the middle of a recession, with a two-thirds vote 
with bipartisan support passed a half penny sales tax that 
generated, as you said, $40 billion, to double the size of the 
rail system, 12 rail projects. But also to invest in highway 
repair, bridge repair, expansion of HOV lanes, HOT lanes 
throughout the region. It became crystal clear when almost 
days, weeks after the passage of that bill, when people would 
walk up to me and say, Mayor, where is the subway you promised? 
I would have to explain to people that it was a half penny 
sales tax, not a ten cent sales tax and that money would 
generate over a 30-year period of time.
    And as you said, working with you and your office, we began 
to look at innovative financing tools. Because we knew that 
this day was coming, that the conversation around the deficit 
and the debt was such that people here in the Congress didn't 
just want to rely on programs that provide grants. And what is 
great about this specific program is that there is a 30 to one 
leverage.
    In our case, and in the case of cities and counties across 
the Country, and States, if you have a revenue pool from which 
to invest in, a stream here, you can leverage that, get a loan 
and pay it back. As you know, we already have done that with 
you, a $546 million loan for the Crenshaw Line. We are now in 
the pipeline, a finalist for a $646 million loan for a subway.
    And the reason why we are qualifying in the way that we are 
is we are putting up our own money. So at a time of high 
deficits and debt, what it encourages is that the 
responsibility not just be on the Federal Government.
    Now, I associate my remarks or support for Ms. Martinovich, 
who said, we don't want this to be in lieu of a Federal 
commitment. We understand how important that is. But at a time 
when we are all debating deficits and debt, this is a creative 
way to incentives localities. And by the way, if you ask 
someone in L.A. and Detroit, in a small town, wherever it is, 
if they would rather support a local tax or bond or a State or 
Federal one, they are almost unanimous in their support for a 
local one, because they want to see their dollars come back to 
their neighborhood.
    So that was the idea around TIFIA. In addition to that, you 
have responded to a number of other changes. Instead of just 
going for 33 percent of a project, this could go up for 50 
percent. Also we could do multiple projects here. You could get 
advance notice, or advance, I forget the exact term, but an 
opportunity to get up-front credit going forward on multiple 
projects, which would help us as well. And that is the thinking 
behind it.
    And I do want to say one last thing, and I know Senator 
Baucus just walked out, to really make this work, getting a 
transportation bond program could really enhance all of this as 
well. Also have a great deal of leverage, also promote public-
private partnerships and the like, to really help us, 
particularly during these tough economic times.
    Senator Boxer. Thank you, Mayor.
    I am going to turn it over to Senator Inhofe for 8 minutes. 
I just want to say here to my colleagues, when we were able, 
when the Department of Transportation made that TIFIA loan to 
Los Angeles, $500 million, the score was $20 million. It was 
barely anything. The reason is, it is a dedicated stream of 
funding, the people vote for it, it is going to be, it is 
hardly any risk at all. That is the exciting part of TIFIA, and 
why I am so grateful. It doesn't replace the core programs, but 
in these times when you hear Mr. James talk about layoffs and 
worries and the rest, and we know construction is still down, 
this will give us a chance to even do more than we can do with 
the basics.
    The last thing is, we did reform TIFIA also to allow rural 
areas to be able to move forward here with practically no 
interest rate. So I think it is terrific.
    Anyway, I give you 8 minutes.
    Senator Inhofe. Thank you, Madam Chairman.
    We went through this back in 2005. At that time, we were 
majority and I was the Chairman. We had a successful effort 
then. But that was $286.4 billion, I believe. Initially it was 
going to be a 6-year bill and then a 5-year bill, I guess.
    And yet, at that time, we had really good testimony. I 
remember some of you, maybe some of the same ones, I think, 
Gary, you were here at that time, saying, that amount of money 
really just maintains what we have now. It is just, and so what 
we are talking about here, it is not as if we are saying that 
to drop $12 billion over a 2-year period is going to inflict 
some kind of hardship. We are saying, even at the full funding, 
it is not adequate. And that is coming from a conservative. And 
I feel strongly about that.
    I remember so well when they had the $800 billion stimulus 
bill. And we were down on the floor, and I couldn't believe 
that only, as was mentioned by Senator Sessions, only 3 and a 
half percent of that actually went to what we are talking about 
today. And so we had an amendment, you talk about being 
bipartisan, the Chairman and I had an amendment, and I am going 
from memory now, it was $29 billion, up to $79 billion. I was 
going to ask, where do you think we would be today if we had 
been successful in that effort.
    But that still would have been only 10 percent of the $800 
billion stimulus. It is just mind-boggling to me, it would have 
been such an easy thing at that time to do, that we didn't do 
it. We just don't want to make that mistake again.
    I am going to start with Secretary Ridley, because we 
talked about this before. I think that Ms. Martinovich would 
agree that how this affects Oklahoma would affect probably all 
the rest of her member States. In the event, Gary, that we had 
to do the 34 percent cut from current level, and that is what 
we are talking about, specifically what would that mean in 
Oklahoma?
    Mr. Ridley. Thank you, Senator.
    Certainly, the impact would be devastating to our 8-year 
construction work plan. We put together an 8-year plan that is 
fiscally constrained based on the moneys that we receive at the 
State level, as well as the anticipated revenues at the Federal 
level, considering current statutes, current law.
    So if you have a basically one-third reduction of the 
Federal funds and the Federal funds make up 60 percent of our 
8-year construction work program, one would have to, if you do 
the math, you are looking at somewhere around $750 million to 
$800 million would come out of that 8-year construction work 
program. So you have about a 4.1 program would have to be 
reduced by $800 million.
    Certainly there are some projects that you could probably 
look to rescope and reduce the length of them. But in that 
program, we have 650 bridges that we will either replace or 
rehabilitate. I can't reduce the length of those, as you might 
expect. They are what they are. And it would certainly put all 
projects within that 8-year program at risk of being either 
reduced in size or scope, or being pushed either out of the 8-
year program or certainly being moved.
    Senator Inhofe. Would there be a specific program in our 
State of Oklahoma that you could just real quickly address as 
to what difference that would make in that project? We have, as 
you know, some huge ones in Oklahoma City and Tulsa and 
elsewhere.
    Mr. Ridley. And you are absolutely right, Senator. We have 
a project in Oklahoma City, it is the relocation of the I-40 
crosstown bridge. And we are getting close to being able to 
take traffic off of that critical bridge and get them on a new 
mainline. But with that, it requires us to reconnect the 
downtown area of Oklahoma City back to InterState 40, 
InterState 235 and InterState 35. We are scheduled to have that 
completed by 2014. One would imagine that again, that project 
and those series of projects would have to be delayed.
    In Tulsa the same way. We have a section of interState 
commonly referred to as Skelly Bypass, Riverside and Yale, that 
is a $340 million project, that we have the last project that 
is scheduled for letting about this time next year. If we have 
this major reduction in Federal funds, one could imagine that 
could very well be a project that we would have to delay.
    That is the oldest section of interState that we have in 
our system. In fact, it was in place before the interState 
system was established. So it was supplanted on top of an 
existing highway. High accident rate, high severity rate and 
high fatality rate in that area. And some of the worst in our 
interState system. Delaying completion of that project would 
not only cause additional costs, but certainly you could expect 
to have additional accidents, both personal injury and maybe 
even fatalities, any delays that we would have you could 
certain expect that.
    Senator Inhofe. And I would like to ask Mr. James or it 
could be just about anyone, the alternative, if we were to deal 
with just more extensions, and even if the money were the same 
amount, in addition to just the reforms that we have in there, 
what other problems, Ms. Martinovich, do you see that would be 
there? In other words, we spend the same amount of money but we 
do it with extensions.
    Ms. Martinovich. Thank you, Senator.
    The biggest problem is not being able to plan. As a 
transportation official, I don't know when the money exactly 
would come or even how much, because of what the unknown times 
are, or what the criteria is. And assuming it is all the same, 
I still will be hesitant to put out any projects that are past 
that, not knowing if I am going to be reimbursed on time. And 
then supplementing, paying those contractors with our State 
money.
    So it is a balancing act and a planning act. So if I can't 
plan, how can our customers plan? How can the contractors know 
and set up their resources? How can the supplies even be 
available not knowing, do they make a lot or do they be 
reactive?
    So then that delay could impact time.
    Senator Inhofe. That is what I am trying to get at, because 
we have a lot of things, the predictability that is in here and 
how that translates into what we are going to be able to get 
from a bill. We have the flexibility in terms of the States' 
activities and these things. So I guess what I am saying is, we 
have a lot of really good reforms. Some of them were easy. Some 
of them we didn't agree on in the beginning. But that to me was 
almost just as important as the amount of money to be able to 
predictably see it.
    I am going to thank you, Mr. O'Sullivan, too. My time is 
expired, but I just want to tell you that I appreciate your 
being here and bringing to the table the fact that we have 
thousands and thousands of jobs out there. I often wonder, and 
maybe you put the pencil to this, I don't know, but if we had 
been successful in changing that $29 billion to $79 billion, 
how many more jobs today would there be actively working on?
    Mr. O'Sullivan. If we used the statistics of 34,000 jobs 
created for every billion, there would be an awful lot more 
jobs. There would be less unemployment in the construction 
industry. And the question about what would happen as far as 
the State department of transportation, from the labor 
perspective, we already have a 15.6 percent unemployment rate 
in the construction industry today, down from 20 percent, 1.3 
million construction workers out of work. From the unionized 
sector, we have lost 30,000 members in the last 2 years. And 
unfortunately, over half of those were construction laborers 
working on heavy and highway projects that had eight or more 
years of service in the industry.
    So as the unemployment rate goes up, this has been a 
sustained depression or recession in the construction industry, 
one that we really haven't witnessed in a real long time. And 
we are seeing an exodus of skilled craftsmen and women leaving 
the industry that makes it difficult when the money is there to 
revamp and to rebuild the crumbling infrastructure in this 
Country.
    So the skills drain in this Country because of the 
prolonged recession in the construction industry is a real 
problem.
    Senator Inhofe. I appreciate it.
    Senator Boxer. I so appreciate your asking that question.
    Senator Inhofe. Our witnesses here, this is really unusual. 
We have everybody covered here. So I express to you my 
appreciation for working on this input that we are getting.
    Senator Boxer. Well, it is extraordinary. I went, about a 
year ago, to a job retraining center in the Central Valley. One 
of the programs was learning how to chef. And I went around the 
room and at least in that room of about 25, 30 working people, 
were at least 10 who said they were construction people. 
Imagine. And they just plain had given up.
    So your point is poignant and it is accurate. I thank you 
for it.
    Senator Merkley?
    Senator Merkley. Thank you very much for your testimony and 
thank you, Madam Chair.
    I really want to make sure we understand fully the job 
implications. I have heard the estimates ranging from 700,000 
jobs at the high end, 500,000 jobs. Can a couple of you who 
feel like you have a real handle on these numbers help us 
understand if we don't get this reauthorization and we have 
this roughly 35 percent drop?
    Mr. James. Certainly I can speak for my company, my 
customers' companies and our suppliers' companies. We are 
staffed at a level today that is in anticipation of maintaining 
the current level of funding. If for some reason that declines 
further, we unfortunately, and our customers and our suppliers 
will also have to take further reductions to remain 
economically viable.
    We have no other choice. That is our only option. So this 
is not a theoretical job loss issue. It is real, these are 
human beings. These are members of Mr. O'Sullivan's union and 
others who we will not have work for if this Federal program is 
not maintained at current levels.
    Mayor Villaraigosa. Senator Merkley, the number that I 
mentioned earlier was with a 36 percent cut, about a 630,000 
job loss. To our agency alone, the L.A. County Metropolitan 
Transit Authority, about $1.4 billion. So it is a very, very 
sizable impact on the job market, but also on our ability to 
fund important projects.
    Senator Merkley. Mr. Ridley?
    Mr. Ridley. Senator, a lot of talk and a lot of discussion 
has centered around, and rightly so, on the current job 
situation in America in all our States. And that is certainly 
an area that we look at in the short term, especially for 
creation or sustaining jobs in the construction market.
    But to me, the idea of investing in ourselves and investing 
in the infrastructure establishes much more than that. 
Exponentially more than that. If we think about the investment 
that our Nation put into the interState system and where we are 
today with the economy and where we would be without it, I 
think that rebuilding our system, our national system, if you 
will, to get it back to where we were or better than where we 
were 20 years ago will create that investment along those 
corridors like we haven't seen in a long time.
    So I think that the economic vitality of this Nation is 
totally dependent on how well we do our job as far as the 
infrastructure is concerned.
    Senator Merkley. Thank you. I certainly agree that 
investing in our infrastructure is absolutely critical, 
critical to our economy in terms of job creation and critical 
to our future economy in terms of our ability to transport 
goods and people. We recently had a bipartisan delegation that 
went to China, and it had been 14 years since I had been there. 
In those 14 years the amount of infrastructure that had been 
built was massive. The estimates I heard have ranged from 10 to 
12 percent of GDP being invested in infrastructure.
    To ride a 200 mile per hour train out of Beijing to Tianjin 
was kind of a startling feeling. I have never had the chance to 
set foot on a 200 mile per hour train here in the United 
States. To see the amount of light rail transportation and the 
amount of road infrastructure that had been constructed in a 
decade and a half. I think the estimate is we are spending 2 
percent of our GDP. And we are barely maintaining the 
infrastructure we have.
    And so I want to applaud all of you for bringing your 
testimony today. I want to applaud the Chair and Ranking Member 
for working together to try to figure out how we can sustain 
our investment. Because in my opinion, this is simply the 
minimal acceptable approach, that in fact we should be figuring 
out how we can spend, and someone referred to building bridges 
in Baghdad rather than building bridges here. That was a very 
poetic way of putting it.
    But we need to figure out how we can invest far more in our 
infrastructure here. Thank you all.
    Senator Boxer. Thank you so much.
    Senator Whitehouse?
    Senator Whitehouse. Thank you, Chairman Boxer, for holding 
this important hearing and for the hard work that you have put 
in to create such a broad spectrum of consensus on this point 
that is reflected in today's panel.
    We obviously are facing a very serious shortfall in 
transportation funding. In Rhode Island, one in five of our 
bridges are presently structurally deficient. That is the 
fourth highest ratio of any State. Sixty-eight percent of our 
roads are rated in poor or mediocre condition. And 37 percent 
of our major urban highways are congested. There is a lot of 
work that needs to be done.
    Estimates are that to bring Rhode Island's highway system 
to a State of good repair, we would have to double our current 
spending levels for 10 years. But against that backdrop, the 
House of Representatives, the Republicans in the House of 
Representatives, have proposed a budget that would cut current 
transportation funding levels by more than a third. This 
obviously would have a devastating impact on the economy, a 
devastating impact on jobs. Rhode Island's unemployment rate is 
the fourth highest in the Country. And this cut would lead to 
the loss of 3,500 more jobs in Rhode Island.
    So it is totally unacceptable. And I applaud, again, the 
Chairman, the Ranking Member and Senators Baucus and Vitter for 
their work to bring us to this point.
    The question that I would love to ask, let me ask Mr. 
O'Sullivan, representing one of our strongest labor 
organizations, and Mr. James, representing a very strong and 
successful private sector corporation with interest in this 
area. Have we done a good job in Congress at distinguishing 
between spending and infrastructure spending? I think of a 
family that has a moderate income and they discover that they 
have a significant problem in the roof of the family home. You 
could ignore that, you could sit around the kitchen table and 
say, you know what, this family is spending too much. We are 
not going to spend to fix our roof. That would be wasteful 
spending.
    Well, the water would continue to pour through the roof, 
the damage to the house, a family asset, would continue. You 
could easily see a circumstance in which the smartest decision 
for the family would be to go to the credit card, fix the roof, 
protect the asset, save money in the long haul. And that is a 
very, very different family decision than saying, you know 
what, let's take the same credit card and take the whole family 
to Walt Disney World for a week.
    Some people here in Washington don't seem to be able to 
distinguish between those two kinds of spending. One is money 
out the door, and the other leaves you with a national asset 
that you can go out and touch, a bridge, a highway, a high 
speed rail system, an improved airport that runs on digital 
technology instead of cathode ray tubes when it is bringing in 
the aircraft safely to our landing strips. I would love to have 
the thoughts again of Mr. O'Sullivan and Mr. James on that 
distinction between spending for spending's sake and spending 
to strengthen America's infrastructure and our common wealth, 
to use an old phrase, as a Nation.
    Mr. James. Thank you, Senator Whitehouse, for the question. 
Having spent a lot of years in the business world, where we 
invest heavily in large plant and equipment, the answer to that 
question seems so obvious. When the United States spends money 
building infrastructure, you have created an asset. That asset 
lasts literally for decades. We are all traveling on a Federal 
interState system that has been in existence now, in many parts 
of it, for four or five decades. It is a real asset.
    Unfortunately, there is not a Federal balance sheet like 
there is in the private sector, where we can look at our 
investments over the last 10 or 20 or 30 years and say, here is 
a real asset, it is producing economic efficiency, it is 
producing revenue, it is a long-term value-enhancing asset. 
Somehow we don't see that, or that doesn't seem to enter----
    Senator Whitehouse. Indeed, we have no capital budget in 
the Federal Government to work with to accomplish that.
    Mr. James. Yes.
    Mr. O'Sullivan. Senator, thank you for the question as 
well. Nice to see you.
    We talk about accountability. I think we all believe that 
whatever money we are going to spend on infrastructure, there 
has to be accountability, it needs to be targeted and we need 
to be able to feel it, touch it and see it at the end of the 
day and that it has an impact on our economy, it has an impact 
on our infrastructure and it has an impact on putting people 
back to work and our ability to move goods and services across 
the Country.
    I also think that what we need to do is a much better job 
of the general public realizing, we talk about statistics like 
27 percent of our bridges are structurally deficient or 
functionally obsolete. But people keep driving across them 
without any real knowledge.
    We did a campaign called Build America campaign. And we 
took out billboards in a number of places across the Country 
and showed the undercarriage of a bridge that was rotting away, 
because you can't always see it from the top down, and the 
impact. It was a union-funded campaign, but it was a campaign 
to inform the general public about the sad State of our 
infrastructure, of our bridges in this Country.
    If we don't get it in Washington, sometimes, I think what 
we need to do is take the message of the crumbling 
infrastructure across this Country so people realize the State 
of affairs, that we do have a $2.2 trillion problem. I even 
commend this committee and Chairman Boxer again on your 
leadership on this issue. But we all agree that this is a 
starting point and we know we need to do even more.
    But I think what we need to do is we need to make sure that 
people understand the State of affairs and the reason that we 
need to invest in infrastructure, because it affects their 
livelihood. That campaign really highlighted it for the general 
public that we put out. We got more calls, not from members, 
but from the general public saying, I can't believe that bridge 
is in that repair, because they couldn't see it driving over 
it. But we had taken pictures above.
    Senator Whitehouse. Madam Chair, if I could conclude by 
echoing what Mr. O'Sullivan just said, if you go into the 
Providence Place Mall, which is the big downtown shopping area 
in Providence, the highway 95 goes by on a large bridge, a 
viaduct. And you go around and underneath it to get into the 
parking area in the mall. If you look up, you will see planks 
put across the I beams that support the bridge. The plans are 
there because the bridge is falling through, and the planks 
stop chunks of the bridge that fall through from landing on the 
cars as they go by.
    That is the State of the main artery going up the northeast 
as it goes through our capital city. Thank you very much.
    Senator Boxer. Senator, that is a visual that we need to be 
reminded of. I think Senator Inhofe talked about a tragedy that 
occurred in his State when a piece of concrete fell on a young 
mom who was walking past, and she is gone. This is our 
responsibility, frankly, I mean, our committee's 
responsibility. And I so appreciate that.
    I think when we get to our markup, before we leave here, I 
think we should try to get a few photographs of this example 
and others, just to keep it in the front of our minds, maybe 
from Alabama to California and every other place, that is a 
stark reminder of what we are dealing with here is really life 
and death and safety in addition to the jobs and the movement 
of goods and freight and the rest of it.
    Senator Sessions?
    Senator Sessions. Thank you.
    We had some of the top appointments to the Defense 
Department, and as a Budget member I had to warn them that they 
had to tighten their belts like everybody else. So we are all 
in that mode.
    I think that we need to do our dead level best to maintain 
the kind of funding this committee proposes. Whether we can do 
that or not, I am not sure. We are in worse shape financially 
than most people realize. We are borrowing literally 40 cents 
out of every dollar. Cities, counties and States have been used 
to repairing to the Federal Government to ask them to help when 
they live within their budgets. And they know we don't have to 
live with ours. So we will just be a source of money. And it is 
a very, very difficult thing.
    So a number of things that I believe the bill attempts to 
do and I think can be helpful is to reduce some of the delays, 
some of the roadblocks and problems, and that reduces cost. Mr. 
Ridley, I guess you testified about that earlier. But delays do 
drive up costs. And it means you get less miles constructed of 
roadways as a result. And regulations also can drive up costs. 
Do you agree with that?
    Mr. Ridley. Yes, sir, Senator, you are right on target. As 
we talked about, it is not only the cost of delays for putting 
people to work, it is not only the cost of delays for increased 
inflation. But the real cost is for the road user that may have 
to have a structurally deficient bridge that is load posted and 
have to take a detour around that with a heavy load. It may be 
where school buses can't cross over bridges simply because the 
average load of an average school bus is about 15 tons. So many 
bridges rated under that, they cannot cross it. It may be the 
shippers that are trying to get from one side of the State to 
the other who are not able to use a system because of delay 
costs.
    But more importantly than that, Senator, it is the 
accidents, the fatality accidents, personal injury accidents 
that happen on those roads and bridges simply because we have 
been unable to fix the problem we know exists.
    Senator Sessions. And when people, it takes time out of 
their day, commuting or even carrying out business functions.
    Mr. James, I remember several years ago Birmingham had a 
serious interState problem, a wreck, I believe, caused it. They 
put it on an accelerated repair schedule and they gave rewards 
to the contractor for coming in under time. What was your 
recollection of how that came out?
    Mr. James. It came out beautifully. A good customer of ours 
repaired the bridge. They worked 24-7, 7 days a week, they 
brought a lot of labor in. And they got the bridge repaired. It 
was destroyed by a fire. And it was back in service, I think, 
within 90 days or less. And the contractor earned a very nice 
premium from the Alabama DOT for completing the project on spec 
and early.
    Senator Sessions. And accelerated timeframes don't always 
drive up costs, either, do they?
    Mr. James. Probably they make it dramatically more 
efficient, because the contractor could mobilize, bring the 
work force in, finish the project, demobilize as opposed to 
stop and start construction, which has often occurred.
    Senator Sessions. I think some of our Governors and 
politicians, they promise 20 roads and they have money to 
complete 10, and they start 20, and it takes twice as long, and 
sometimes that drives up cost. I am not accusing anybody of 
anything. But I do see a lot of roads that are partially 
constructed with grass growing up and months going by.
    Mr. James. Senator, if I could, I think it is the duration 
of a program that is really the key to efficient construction. 
So that a project can be started and completed within the 
duration of a multi-year program. And I think that is a huge 
key.
    We are all supportive of the 2-year bill that this 
committee has reported out. But ultimately to get efficiency in 
the highway program, there has to be a multi-year bill.
    Senator Sessions. Thank you for sharing that. We will have 
to look at some things. I know the President believes in high 
speed rail. I think that is not yet proven, and it is very, 
very expensive. Certain rail projects in high population areas 
I am sure can be worthwhile. But I think we will have to look 
at that as part of our projections as to how to, is that the 
best place to spend our dollars right now, when people, 
commuters are blocked significantly. So we will be looking at 
those issues and the regulations, trying to get more bang for 
our buck, as well as trying to preserve the amount of money, 
preserve the funding that we have.
    My time is up, Madam Chairman, thank you.
    Senator Boxer. Senator Sessions, I want to pick up on a 
couple of things. You are so right, if we build incentives into 
completion on time or ahead of time, it helps. With this whole 
Carmageddon thing, we also had the contractors finish ahead of 
time, got a bonus. When Pete Wilson was Governor, he put that 
into play after one of our series of earthquakes. It was 
remarkable how that incentive worked.
    And that is what we have tried very heard to do, is to 
give, let's just say disincentives to agencies around here to 
sit on their butt and not do what they have to do to move 
things forward, without taking away the rights of people, still 
giving them their full right if they feel there is an 
environmental issue. OK, bring it up, but we can't string it 
out forever. I think that is an important reform that we did.
    I wanted to just, before I call on Senator Carper, to tell 
you, you are so on track when you talk about the wasted time. 
The Texas Transportation Institute always does a study about 
this very issue. And their latest study was finished in 2010. 
This is what they said: ``Americans waste 4.8 billion hours a 
year sitting in traffic due to congestion. This translates to 
almost 4 billion gallons of extra fuel consumed and $115 
billion cost to the Nation when cost of fuel and lost 
productivity are factored in.'
    So when we talk about what our priorities are, and I 
couldn't agree with you more, this is a question of priorities. 
If we allow the Highway Trust Fund to expire, the authorization 
to expire, and now we see a 34 to 36 percent cut, disaster, 
that is what would happen. It is so counterproductive, because 
you wind up, this is one of those investments that the 
dividends paid are very clear. But it is true, we have to make 
reforms. We don't want to have a program going that is not 
efficient.
    The reason I am so proud of the work we have all done here 
together is we have taken all of the recommendations from a lot 
of the people sitting here, business, labor, environmentalists 
also, who have helped us to work together across party lines to 
come up with a bill that is going to address those issues that 
you talk about, the wasted time.
    But at the end of the day, we have to determine, as 
Americans, and we representing the American people, if 
investing an additional $6 billion a year for 2 years makes 
sense. I can honestly say, in the size budget that we have, we 
are going to have to figure this out.
    I don't know if you were here when I pointed out that the 
Gang of Six, which was first a Gang of Six, then five, now it 
is a Gang of 42 or whatever it is, they actually do mention 
only one spending priority, and that is the Highway Trust Fund. 
They instruct in that particular document the Finance Committee 
to fund the Highway Trust Fund at the current levels for 10 
years. And they say how much it would cost.
    I think Senator Inhofe was very happy with that, because I 
think it showed a bipartisan consensus building. But we all 
face cuts in our future. But in this particular arena, if we 
were to allow the draconian cuts that appear to be on the 
horizon if we don't act, it is terribly counterproductive, 
620,000 jobs lost in 2012 alone. That is not a guesstimate, 
that is a true estimate. And we have seen business and labor 
today confirm that it is just a crisis out there.
    So I know how you are wrestling with this whole issue of, 
we need to do this but how do we do it. My opinion is, there 
are certain areas of the Federal Government that some of us 
don't think ought to grow. We may have different opinions on a 
host of them. But on this one, I think we should build on the 
bipartisanship we have. We have to do this. Because if we don't 
do this, it is counterproductive. People are going to lose 
their jobs. And I am not being melodramatic, they will lose 
their lives. We have seen too much of that.
    And we will not be able to compete in the world. So I look 
forward to working with you. And I am with you, I am going to 
do some tough, tough cutting. We have no choice, we have to do 
it.
    But we also need to be smart about how we do it. So I just 
think you have been very helpful today, and thank you for being 
here. With that, closing up shop today, Tom Carper, please have 
10 minutes, since we have all taken a lot of extra time.
    Senator Carper. Gosh, I don't know what I would do with 10 
minutes. I will figure it out. I will do two opening statements 
with that time, and 17 questions.
    [Laughter.]
    Senator Carper. Thanks, Madam Chair. Thanks for pulling 
this together, thanks for working so hard and your fine 
leadership and working with our colleagues to your right and to 
your left.
    I really appreciate very much the witnesses being here. 
Thank you, some of you have been here before, a number of 
times. We are grateful for your advice to us and your responses 
to our questions.
    Senator Boxer was just mentioning how much time we waste 
sitting in traffic jams around this Country. Every year, I 
think, you may have referred to it, I think it was a university 
down in Texas that actually figures this up every year and tell 
us how much time, puts a price tag on the time we waste. There 
is, running up and down through the east coast of our Country, 
as we all know, is I-95. It starts in Florida, ends up in Maine 
and runs through Delaware and cuts the northern part of our 
State in half. For as long as I can remember, I came to 
Delaware right out of the Navy in 1973. We had I-95 then, we 
had a toll plaza right along the border between Maryland and 
Delaware.
    During weekends, especially summer weekends when a lot of 
people were trying to get to the beach, going up and down the 
northeast corridor, holidays, we always had backups, traffic 
jams around I-95. Right as you were coming into that toll 
plaza, coming into Delaware, going out of Delaware into 
Maryland.
    And one of the things that I got to do as Governor was to 
introduce new technology, EZ Pass, to be able to expedite, at 
least somewhat, the movement of vehicle through I-95, and to 
increase the number of lanes, booths and so forth that we could 
try to move people through. I always felt very badly about 
saying to people who were traveling up and down I-95, trying to 
get through our State, not only do you get to sit there and 
wait for a while for the privilege of coming through Delaware, 
but you have to pay for that privilege. I thought that was 
abhorrent, so we worked on EZ Pass and made, I think, some 
improvements.
    But as time goes by, more and more traffic comes through. 
We get about 140,000 vehicles a day that come across the border 
from Maryland into Delaware going the other way, 140,000. And 
one of the things I sought to do here in the Senate was to 
garner support, through a series of earmarks, for a highway 
speed EZ Pass, so we would have two lanes northbound, two lanes 
southbound, and be able to really move traffic. It turns out 
about 55 percent of the vehicles going up and down I-95 through 
Delaware have EZ Pass.
    If we could just move most of the folks, over half the 
140,000 vehicles onto EZ Pass highway speed lane, we help 
ourselves in a variety of ways. We reduce the amount of time 
people waste sitting there trying to get through my State. We 
reduce the amount of fuel that we waste. We reduce the amount 
of air pollution that comes from all the cars, trucks, vans and 
so forth that are sitting there trying to get through my State.
    And we would actually promote the public safety. If you 
have ever noticed, coming into these toll plazas, you have 
people darting from one lane to the other, trying to get 
through more quickly and so forth. So it works on four 
different points.
    We finally did it. We used money from the stimulus package 
and finished, it took a while, we had to work with the folks 
from Maryland, they were very helpful with us, working right 
along the border. But we opened it up on the 4th of July 
weekend. And the Governor and I got to do a cool event, we 
actually have this arc that kind of goes over I-95 right where 
the toll plaza is, you can actually walk up through there. We 
took some camera crews with us and opened it, opened up the 
sides and you could see the traffic coming from the north and 
heading south and everything and the other way. On the 4th of 
July weekend, that weekend, 4th of July was on Monday, but it 
was like maybe Friday the 1st. No traffic jams. Saturday, no 
traffic jams. Sunday, no traffic jams. Fourth of July, no 
traffic jams, day after, no traffic jams for the first time 
anybody can ever remember we had no traffic jams.
    That is an investment that is not just a two-fer or three-
fer or four-fer, but it yields fruit in so many different ways. 
Cost about $30 million, but the fruits are great, the headaches 
will be greatly diminished. That is a smart, smart investment 
of public dollars, I think, not just for us in our State, but 
for people who go up and down the east coast.
    And as we prepare to spend money, Madam Chair, 
transportation dollars in the next version of our 
transportation infrastructure bill, I hope that we will try to 
figure out how to use money not just to hand it out for formula 
grants, but to be able to disburse the money in ways that 
actually meet the objectives of our Nation, reduce our 
dependence on oil, especially foreign oil, reduce air 
pollution, reduce congestion and enhance safety. Those are 
pretty good goals for us, and I would hope that we keep that in 
mind.
    And the other thing I would say, our Chairman referred to 
the Gang of Six. Gang of Six really flows from the Erskine 
Bowles-Alan Simpson led efforts of a year ago, and the deficit 
commission created by President Obama. One of the things the 
President has called for, and it is supported, I think, by 
Bowles-Simpson, et al., and I think by the Gang of Six, is 
while it is important for us to reduce our budget deficit, if 
we don't, we are doomed. We need a comprehensive, we need a 
bipartisan approach. There are things I didn't like entirely 
about the Bowles-Simpson proposal, but there is a lot of good 
there. Same with the Gang of Six. We just need to set aside our 
differences and deal with these issues straight up, try to do 
more good than bad.
    One of the things that, if we pull back on the spending, 
erase a few dollars in revenue, one of the things I think is 
important is do what the President suggests. He says if we are 
going to win in the 21st century, if we are going to out-
innovate, out-educate, out-compete the rest, we have to, as we 
reduce spending, the global spending, certainly, that we have 
to continue to invest in three areas. No. 1, work force. We are 
not going to be competitive without a world class work force. 
No. 2, R&D. R&D that has the potential for being 
commercialized, leading to new innovations, new products, that 
we can make in this Country and sell all over the world.
    No. 3, infrastructure. No. 3, infrastructure. And if we 
don't have a modern infrastructure, whether it is roads, 
highways, bridges, trains, rail, ports, all the infrastructure 
broadly defined, we will be a second class nation some day. 
Hopefully not in our lifetimes or our children's lifetimes, but 
some day we will. It is just critical. And thank you for 
reminding us of that.
    But as we go forward and invest in infrastructure, it is 
important for us to invest not just in transportation, not just 
in domestic spending, not just in defense spending, everything 
we do, health care, everything, we need to find out what works 
and do more of that. Invest in the things where we get better 
results for less money or better results for the same amount of 
money. That kind of goes back to the example I used with 
highways speed EZ Pass.
    OK, question. I am sure you gave me those 10 minutes, Madam 
Chair. Got that off my chest.
    This is a question of Deron Lovaas. The question to you is 
maximizing return on investments. With new transportation funds 
in, as we know, short supply, we cannot fund every 
transportation project. We have to support the projects that 
give us the most bang for the bucks, the point I was trying to 
make earlier. Scenario planning is a proven approach that 
identifies the costs, performance and tradeoffs among 
investment alternatives.
    For instance, the Delaware Valley Regional Planning 
Commission uses a strategic planning process that compared 
alternative investment approaches. As a result, the region was 
able to accommodate expected new growth while reducing 
congestion, pollution and transportation costs for our 
families.
    Should more States and cities use this common-sense 
approach to make the best use of constrained funding by 
targeting our infrastructure investments?
    Mr. Lovaas. Well, the short answer is yes. More States, as 
well as regions, should use this tool. There are already 
several regions that are doing so, both big and medium sized, 
and finding that there are huge potential savings based on 
infrastructure that does not have to be built by engaging in 
scenario planning. Corporations do it, Fortune 500 companies do 
it, there is no reason that government shouldn't learn from 
them.
    So it is important. And actually, in addition to 
encouraging more of that with the new law, under current law 
there are requirements that plans and programs be fiscally 
constrained. I think it is a good question to ask of the 
Federal Highway Administration and the Federal Transit 
Administration whether or not that is actually the case. 
Because NRDC and I would like to see a lot more investment in 
this program. And let's be clear, we are probably going to have 
to make some cuts as well. So it makes sense to take a look at 
plans and programs and make sure they are fiscally constrained.
    Senator Carper. All right. Thanks so much.
    The last point I will make in my last 40 seconds, in 
Delaware, when I was Governor, we used to say, if things are 
worth having, they are worth paying for. Things worth having 
are worthy paying for. And we could have borrowed money until 
the cows came home to put into our transportation trust fund to 
fund transportation projects. We didn't do that. We did some of 
that, but we actually raised revenues. We raised revenues in 
part by easing up a little bit the tax on gasoline, still to be 
competitive with the rest of the region. And we used other 
sources of funds, user fees, if you will, that were 
transportation related.
    At the end of the day, we need to raise some revenues. We 
need to raise some revenues as well. It would be smart if we 
could raise revenues in a way that actually reduces our 
dependence on foreign oil and actually encourage us to be more 
conscious of the need to conserve. So I would leave us with 
that, and with that, my time is expired. Thank you so much, 
Madam Chair. Thank you all.
    Senator Boxer. Senator, thank you so much for your 
leadership on this committee. It is so important. The fact that 
you are also on Finance is key to us, because we have reached a 
milestone today in the bipartisan support for this bill. And we 
must get that same sense of bipartisanship in the Finance 
Committee, because these are tough times, but we know that if 
we fail to act, we are inviting unemployment. We are inviting 
second class economic leadership. We are inviting, it is not 
like we don't know. It is not like we are walking blindly into 
something. We know what the options are.
    What I would like to do in closing today is to go through 
this panel. I know the Mayor is gone, but I know he has told me 
he is utterly committed to this. We have starkly different 
approaches going on in the Senate and the House right now. And 
I don't think it is necessary to bemoan that fact, but it is 
necessary to recognize that fact, that we now have the House 
proposed bill which slashes spending in this area by between 34 
and 36 percent. We have the budget passed bill over there, 
which does the same. We know we have a looming deadline which 
does the same.
    So we have three ways to go that will result in a cut of 
more than a third, and disastrous consequences that all of you 
have spelled out, regardless of your views on the environment 
or politics or whether you like the President or you don't, or 
you are Republican or Democrat. This has nothing to do with any 
of that.
    And I guess what I need to hear from you today, in the most 
unequivocal way, if you can do this, is to tell me whether you 
are willing to be part of a team that is going to move forward 
with this bipartisan bill. This is not going to be easy. But it 
is necessary. It is necessary for the economy, it is necessary 
for the environment, it is necessary for competitiveness, it is 
necessary for safety. And there are a lot of other necessaries. 
It is necessary to make sure that for a couple of years, the 
States know how to play. We have heard from two incredible 
people here who deal with the uncertainty of this every day.
    I remember once before when we weren't going to act on the 
extension that I believe it was Nevada, but it could have been 
other States, I think it was your State, Susan, that just said, 
layoff notices are going out, we just can't proceed.
    So we can't go into this future. This is America. We don't 
do that when we know that we can work together. So my question 
to you, and if you give me a yes on it, I will be very 
grateful. But if you can't, don't do it. Because I am going to 
call on you. This is an unprecedented job we have. We don't 
have time. We have to mark up this bill before we leave this 
summer. We have to get this bill to the Senate floor and pass 
it.
    We have to then persuade our friend, Chairman Mica, who I 
agree with on a lot of things, his embrace of TIFIA is so 
welcome, and I know he cares about this, we have to convince 
him to work with us if we get to a conference. This is a long 
hurdle. We have to convince the Administration to please weigh 
in now. Yes, we want infrastructure back, we love it, it is 
great. That is not the core program. But we should build 
support for it, but it is not the core program.
    So I am going to ask you each, will you be part of a team, 
a bipartisan team, and work as hard as you can to accomplish 
this bipartisan bill? I will start with you.
    Mr. O'Sullivan. Chairman Boxer, we will be there 
unequivocally, we will be there with you lockstep with this 
committee. This issue is too important. We will be there with 
you every step of the way.
    Senator Boxer. Wonderful. Mr. James?
    Mr. James. My testimony today was in full support of the 
bill that is being introduced by this committee. We certainly 
think it is hugely important that surface Transportation 
funding remain a bipartisan effort, which it has been 
throughout its history. And we certainly believe that 
maintaining the current level of funding for the next 2 years 
is the best approach to the highway program.
    Senator Boxer. And will you help us?
    Mr. James. Absolutely. If that was not implicit in what I 
said, absolutely we will.
    Senator Boxer. Excellent, because it is going to take--and 
look, we understand, if this bill takes a different turn and 
somebody here says, any of you don't like it any more, I get 
it. But that is not our intent. It is our intent to keep it as 
you see it.
    Ms. Martinovich?
    Ms. Martinovich. Madam Chair, simply, strongly and clearly, 
yes. AASHTO will be there.
    Senator Boxer. AASHTO is crucial. And Hon. Gary Ridley, 
such a close friend of my colleague, what do you say?
    Mr. Ridley. Madam Chair, certainly the States and cities, 
such as Los Angeles, cannot rely totally on the gas tax that 
they produce in their local areas. They have to require other 
funding, because they take transportation as a higher priority 
than what those funds will produce.
    The Federal Government needs to do the same thing, we 
believe. If you are going to take transportation infrastructure 
at a higher priority and the gas and diesel tax out of the 
trust fund cannot produce the needed revenues in order to pass 
the bill, then you need to find other revenue sources in order 
to be able to ensure that it is funded. We are a yes.
    Senator Boxer. You are a yes. OK. And Mr. Lovaas?
    Mr. Lovaas. We are a part of the Blue Green Alliance, along 
with President O'Sullivan. And we look forward to working with 
him and with you and putting our shoulders to the wheel and 
moving this forward.
    Senator Boxer. Very pleased to hear that. And finally, Mr. 
Cohen, who represents everybody, all the users.
    Mr. Cohen. Absolutely. We are 100 percent supportive of 
this bipartisan effort, and we are glad to be part of the team. 
We will be there.
    Senator Boxer. Good, because tomorrow every one of you will 
be on a conference call with me, and we will be getting some 
other colleagues to join on that call, so that we can just keep 
this coalition together.
    I just want to say to each and every one of you, this job 
that I have, that Senator Inhofe has, the rest of us, we would 
be nowhere without the people. We would be just, as Senator 
Lautenberg said, talking to each other. And I honestly believe, 
in this effort, and I cannot thank the staff enough, Republican 
staff, Democratic staff, this has been a team effort. There 
were moments when I thought we would never get here. We have 
gotten to this point.
    So we now have to keep up the momentum. And your answers to 
this question that I had mean a lot to me. I know Senator 
Inhofe feels the same way, because we can't move it through our 
respective conferences unless we know we have a lot of you 
behind us, all of you behind us.
    So thank you very much. This is a milestone. I think this 
is a day that we will remember for a long time. Let's just keep 
up the spirit. I will talk to you all tomorrow, and we stand 
adjourned.
    [Whereupon, at 12:25 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
